<html>
<title> - THE STATE OF DEMOCRACY IN LATIN AMERICA AND THE CARIBBEAN</title>
<body><pre>[Senate Hearing 117-13]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-13

                    THE STATE OF DEMOCRACY IN LATIN
                       AMERICA AND THE CARIBBEAN

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             MARCH 24, 2021

                               __________


       Printed for the use of the Committee on Foreign Relations
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


                  Available via http://www.govinfo.gov

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-465 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

             ROBERT MENENDEZ, New Jersey, Chairman        
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
CHRISTOPHER MURPHY, Connecticut      MITT ROMNEY, Utah
TIM KAINE, Virginia                  ROB PORTMAN, Ohio
EDWARD J. MARKEY, Massachusetts      RAND PAUL, Kentucky
JEFF MERKLEY, Oregon                 TODD YOUNG, Indiana
CORY A. BOOKER, New Jersey           JOHN BARRASSO, Wyoming
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CHRIS VAN HOLLEN, Maryland           MIKE ROUNDS, South Dakota
                                     BILL HAGERTY, Tennessee
                 Jessica Lewis, Staff Director        
        Christopher M. Socha, Republican Staff Director        
                    John Dutton, Chief Clerk        


                              (ii)        

 

                        C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page

Menendez, Hon. Bob, U.S. Senator From New Jersey.................     1

Risch, Hon. James, U.S. Senator From Idaho.......................     3

Almagro, Hon. Luis, Secretary General, Organization of American 
  States, Washington, DC.........................................     4
    Prepared Statement...........................................     6

Ullmer, Deborah, Regional Director for Latin America and the 
  Caribbean, National Democratic Institute, Washington, DC.......    25
    Prepared Statement...........................................    26

Berg, Ryan C., Ph.D., Fellow, American Enterprise Institute, 
  Washington, DC.................................................    32
    Prepared Statement...........................................    34

                                 (iii)

  

 
               THE STATE OF DEMOCRACY IN LATIN AMERICA 
                           AND THE CARIBBEAN

                              ----------                              


                      WEDNESDAY, MARCH 24, 2021

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Bob Menendez, 
chairman of the committee, presiding.
    Present: Senators Menendez [presiding], Cardin, Kaine, 
Booker, Schatz, Van Hollen, Risch, Johnson, Romney, Portman, 
Young, Rounds, and Hagerty.

            OPENING STATEMENT OF HON. BOB MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee on the State of Democracy in Latin America and the 
Caribbean will now commence.
    Today we continue our series on the state of democracy in 
the world with a focus on the Americas. This year, we will 
celebrate the 20th anniversary of the Inter-American Democratic 
Charter, the groundbreaking manifestation of consensus in our 
Hemisphere that, ``the peoples of the Americas have a right to 
democracy, and their governments have an obligation to promote 
and defend it.'' Over the past 2 decades, we and our neighbors 
have endeavored to deepen our commitment to democratic 
governance, even as significant backsliding has occurred. 
Indeed, we in this very chamber are all too aware, as the 
fencing comes down around the Capitol Complex this week, that 
democracy can be fragile and requires vigilance. Autocrats and 
populists alike have borrowed tactics from the same play book, 
dismantling constitutional checks on power, attacking a free 
press, closing space for civil society, and using 
disinformation to sow discord and undermine citizens' trust in 
government.
    Although I am painfully aware of challenges to the U.S. 
following the same exact play book, including the January 6th 
assault on Congress, I firmly believe that the United States 
has to continue to fervently advocate for democracy promotion 
in the world and in our Hemisphere. Our unwavering efforts to 
form a more perfect union and continuously improve our 
democratic institutions and processes is not only one of our 
greatest strengths, it is one of the greatest assets we can 
share with our partners. While we know from diplomats and 
activists that President Trump's actions made it harder to 
champion democracy and human rights in our Hemisphere, we must 
not falter. The cost of inaction is too great.
    There was a time when Cuba was the only remaining 
dictatorship in the Americas. However, with assistance from 
Havana, we have seen the rise of a criminal dictatorship in 
Caracas that poses risks to regional stability and U.S. 
national security. The Maduro regime's unbridled kleptocracy 
and criminality has fueled the humanitarian crisis that has 
forced over 5 million Venezuelans to flee their country, and 
there is growing evidence that the Maduro regime has committed 
crimes against humanity. It is time for the United States to 
lead a coordinated multilateral response that has been lacking 
in the last several years.
    Over the last half decade, we have seen deeply flawed and 
fraudulent electoral processes across the Americas, whether it 
was Nicaragua in 2016, Honduras in 2017, Bolivia in 2018, 
Guyana in 2020, or Venezuela in 2017, 2018, and 2020. Each 
electoral crisis metastasized into a larger political crisis 
that shook the foundation of constitutional order in the 
country. We cannot allow this trend to continue. We must 
advance new initiatives to ensure the integrity of elections in 
the Americas. This includes ensuring that all people have the 
right and access to vote in free and fair elections.
    Beyond the challenges to elections, the deterioration of 
democratic governance in several countries has perpetuated a 
growing culture of impunity in which public officials placed 
their personal interests and, in some cases, criminal interests 
over those of their own citizens. In Central America, citizens 
see no future in their countries. They see limited social 
programs gutted by corruption. They experience the absence of 
accountability. They watch as some government officials shirk 
their duty to ensure public safety, and instead use public 
officers to protect the violent criminals and drug traffickers 
that spread the very instability that fuels their poverty and 
hopelessness. And when the United States fails to prioritize 
human rights, good governance, and accountability as we engage 
with our neighbors, Americans are very directly confronted with 
the consequences.
    I believe that we must restore our commitment to promoting 
democracy as a central objective of U.S. foreign policy, not 
just because it is right, but because it directly contributes 
to the security and prosperity of all Americans, and we must be 
clear-eyed about the cost of inaction. Russia has expanded its 
support for authoritarian leaders in Venezuela and Cuba. China 
has started exporting its invasive citizen surveillance systems 
to the Americas alongside its efforts to use economic influence 
for political gains. With the 20th anniversary of the Inter-
American Democratic Charter upon us, and the United States 
scheduled to host regional leaders for the Summit of the 
Americas this year, it is the perfect occasion to develop a 
renewed hemispheric agenda. We have a unique opportunity to 
reaffirm consensus for the Charter's core message: ``that 
democracy is essential for the social, political, and economic 
development of the Americas.''
    With that, let me turn to the ranking member for his 
remarks.

                STATEMENT OF HON. JAMES RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you, Mr. Chairman. Nearly 20 years 
ago, the members of the Organization of American States made a 
commitment through the Inter-American Democratic Charter to 
promote and defend democracy as a right of every citizen in our 
region. The peoples of the Americas have made great strides 
towards democratic governance. Today nearly 90 percent of the 
governments in Latin America and the Caribbean are considered 
democracies. Still, as then Governor Reagan reminded us, 
``Freedom is a fragile thing and is never more than one 
generation away from extinction.''
    Widespread dissatisfaction with corruption and weak 
governance can lead to undemocratic and even despotic rulers. 
It is disheartening how quickly something like that can happen, 
even with just one or two leaders who are not committed to the 
rule of law and democracy. We do not have to look very far for 
examples. Within a generation, Hugo Chavez and Nicolas Maduro 
turned Venezuela from what it was--a democracy--into a failed 
state. Cuba and Nicaragua went through their own awful descents 
into authoritarianism several decades ago. These regimes have 
some of the world's worst human rights records and certainly 
the worst in the Americas. They draw lessons from one another 
to sharpen state-sponsored repression, and they receive the 
support of malign state and non-state actors. This poses a 
unique challenge to the peace and stability of our Hemisphere.
    These three outlier countries should be a warning sign in 
the Hemisphere. A series of flawed elections and attempts at 
undermining electoral process in Haiti, Honduras, Bolivia, and 
Guyana, endemic corruption, and the growing nexus between 
criminal organizations and government officials or institutions 
present serious threats to democracy in our region. The 
consolidation of power by a highly popular leader with 
authoritarian tendencies requires a strengthening of 
independent judiciaries, robust civil society, and independent 
media to provide the necessary checks on power.
    Equally concerning is the negative effect of malign state 
actors, such as China, Russia, and Iran. While China has 
leveraged predatory lending practices throughout the region, 
they have provided a critical direct financial lifeline to the 
authoritarian regimes in Venezuela and Cuba, which has helped 
the regime secure their economic position and maintain control. 
Further, the adoption of Chinese technologies developed and 
controlled by companies vulnerable to pressure by the Chinese 
Communist Party can be formidable. It can be a formidable 
threat to privacy and to human rights. Russia has exported 
repressive laws and tendencies to its allies in the region, 
which, in turn, have allowed authoritarian leaders to crack 
down and repress independent media, civil society, and 
political opposition.
    The United States has an enduring interest in a prosperous 
and stable Western Hemisphere, and democratic institutions are 
the best guarantors of prosperity and stability. I look forward 
to hearing from our witnesses on how we may be able to support 
those that seek to secure democratic governance for current and 
future generations in Latin America and the Caribbean. Thank 
you, Mr. Chairman.
    The Chairman. Thank you, Senator Risch. It is now my 
privilege to welcome back to the Foreign Relations Committee 
the distinguished Secretary General of the Organization of 
American States, our Hemisphere's preeminent multilateral body. 
First elected in 2015 and re-elected in 2020, Secretary General 
Almagro been a tireless champion of democracy and human rights 
in the Americas. He has been an outspoken advocate on the need 
to restore democracy in Venezuela and has led efforts to 
investigate the Maduro regime's involvement in crimes against 
humanity. Secretary General Almagro has facilitated numerous 
election observation missions in the Hemisphere and has been 
outspoken about violations of election integrity and incidents 
of electoral fraud.
    Prior to serving as OAS Secretary General, he served as 
Uruguay's Foreign Minister from 2010 to 2015, and I can think 
of no individual better positioned to speak to the need to 
reinforce democratic consensus in the Americas and strengthen 
collective action to uphold the ideals of the Inter-American 
Democratic Charter. Mr. Secretary General, the floor is yours. 
We will include your full statement for the record, and we ask 
you to summarize it so that we can then have a conversation 
with you. Mr. Secretary General.

STATEMENT OF HON. LUIS ALMAGRO, SECRETARY GENERAL, ORGANIZATION 
               OF AMERICAN STATES, WASHINGTON, DC

    Mr. Almagro. Thank you very much, Senator Menendez, Senator 
Risch, members of the committee.
    This year marks the 20th anniversary of the Inter-American 
Democratic Charter, our veritable constitution of the Americas. 
It is unique in its creation because it is the first document 
of its kind to define democracy and enshrine it as a right for 
all people of the Americas. For all the people of the Americas.
    Member-states created a strong mechanism to bolster our 
Hemisphere's collective commitment to the promotion and defense 
of democracy. It also introduced the scenario that has proven 
to be the main threat to modern democracies worldwide, when the 
threat to the democracy comes from the government itself. With 
unanimous approval, the Democratic Charter not only established 
clear obligations for the exercise of democracy within a 
framework of law, but it also created the tools and authorities 
for its promotion and enforcement.
    It is a tool that is available to us and one that we 
actively use. It has been invoked in cases where there has been 
an overt interruption of democratic or constitutional order, 
like the case in Venezuela in 2016 and Honduras in 2009. But it 
is also a means to support countries asking for assistance, as 
with the case with the 2020 mission to Guatemala and the 2021 
mission to El Salvador. The Charter is preventative. It helps 
to stabilize democracies.
    Restoring the hemispheric commitment to democratic values 
and principles in the Americas will definitely require a lot of 
work within the organization, but we also require American 
leadership through the model of the Democratic Charter. We 
require your political commitment and the resources necessary 
to supporting the consolidation of democratic activities. The 
OAS simply cannot deploy democratic missions or implement 
activities without the financial resources to do so. You will 
need good friends and allies if you want to see successful 
policies implemented on a democratic paths. If we shy away from 
these democratic responsibilities, we will all too quickly find 
ourselves in a hemisphere with unfriendly faces, surrounded by 
regimes who have rejected democracy, instead, choosing an 
ideology of corruption and repression.
    Definitely we have challenges ahead, like COVID-19, and in 
that sense, governments throughout the region will need 
assistance in tackling the economic fallout and providing much-
needed social services. We will need to pump additional 
financial resources into restarting economies, increased 
flexibility to face debts and provide loans. Equal access and 
equitable distribution of vaccines will be essential to post-
COVID growth and recovery. Definitely the recent United States 
commitment to support its immediate neighbors access vaccines, 
it is a welcome start. More needs to be done to ensure vaccines 
also flow to your third border with the Caribbean countries and 
throughout the continent.
    We have ahead, of course, years for elections, and 
definitely we need to improve election integrity. The problems 
that we have been faced with are a series of fraud elections. 
You have mentioned the cases of Venezuela and plus others. 
Definitely we have been facing that problem about the 
continent.
    The Nicaraguan case is a case that needs an urgent and 
immediate electoral reform. We have done so in Honduras. We 
still have to improve a lot the way the Honduras democracy 
electoral process work. We are working with Haiti, too, in 
order to improve their electoral process, and we have to face 
extreme cases. Bolivia was an extreme case with significant 
irregularities. Election observers were essential. The 
electoral fraud in Bolivia represented a paradigmatic example 
of ill intention and bad practices with the goal of 
manipulating the electoral outcome. Definitely we can go 
through all the irregularities we found, including irregular 
servers--illicit servers, false information, tally sheets 
filled with irregular form, plus 20-something more 
irregularities.
    Democratic processes must be transparent, inclusive. We 
need to work on technology because technological issues become 
a bigger challenge today for democracy, for our electoral 
process. Democracy needs democratization. We must address any 
kind of and all forms of discrimination in our society, 
discrimination against marginalized communities in cases of 
gender, of women, LBGTQ, indigenous people, communities of 
afro-descendants, migrants, older persons, persons with 
disabilities, or marginalized religious communities, and 
antisemitism. It should be targeted, and we should be avoiding 
any form of discrimination. We have to fight against 
corruption. The tool we have is the declaration of the previous 
Summit of the Americas. We have to work harder on these 
matters. We applaud initiative about having a sub-regional 
committee for investigating corruption in Central America. That 
is a very good starting point.
    Misinformation and disinformation is also another topic in 
our--in our democracies. We are now in the preparatory phase of 
the Ninth Summit of the Americas, again, under the presidency 
of the United States. As we are entering the preparatory phase, 
it is evident that the recovery of the region in its health, 
economic, and social aspects will be very much at the center of 
our concerns, as well as the consequences on democratic values 
and practices in the region on this 20th anniversary of the 
Inter-Democratic Charter. Thank you very much.
    [The prepared statement of Mr. Almagro follows:]

                   Prepared Statement of Luis Almagro

    Senator Menendez, Senator Risch, members of the committee, this 
year marks the 20th anniversary of the Inter-American Democratic 
Charter; our veritable Constitution of the Americas. It is unique in 
its creation because it is the first document of its kind to define 
democracy and enshrine it as a right for all people of the Americas.
    It was established in a moment of democratic fervor motivated by 
the end of a violent dictatorship, in a period was marked by enthusiasm 
amongst States to create a stronger mechanism to bolster our 
hemisphere's collective commitment to the promotion and defense of 
democracy. It also introduced the scenario that has proven to be the 
main threat to modern democracies worldwide; when the threat to the 
democracy comes from the government itself.
    With unanimous approval, the Democratic Charter not only 
established clear obligations for the exercise of democracy within a 
framework of law, but it also created the tools and authorities for its 
promotion and enforcement. Recognizing the aberration of democratic 
progress could be a threat to the peace, stability, and prosperity of 
all OAS Member States, it not only enabled its signatories to act, but 
created an affirmative responsibility to act.
    It is a tool that is available to us and one that we actively use. 
It has been invoked in cases where there has been an overt interruption 
of the democratic or constitutional order, as was the case in Venezuela 
in 2016 and Honduras in 2009, but it is also a means to support 
countries asking for assistance, as with the case with the 2020 
missions to Guatemala and the 2021 mission to El Salvador. The Charter 
is preventative--it helps to stabilize.
    With the political fragmentation and encroachment on democratic 
values we are experiencing today, achieving consensus on such a 
document--securing the tools and authorities it conveys--would be 
impossible.
    In this moment, a hemispheric consensus on democracy is not so 
readily available and we are forced to confront the reality that we 
have dictatorships in our midst. Dictatorships with friends who are 
willing and eager to play a less constructive role in the region.
    Our hemisphere has a shared fate and we must remain committed to 
building the path to more rights and more freedoms for the all people 
of the Americas and the means to respond lies with the Democratic 
Charter. By committing ourselves to realizing its goals both within our 
own borders as well as supporting the efforts of our neighbors we will 
achieve a path to shared prosperity.
    Restoring the hemispheric commitment to democratic values and 
principles in the Americas will require U.S. leadership. American 
leadership through the model of the Democratic Charter will require 
your political commitment and the resources necessary to supporting the 
consolidation of democratic governance across the continent. The OAS 
simply cannot deploy democratic missions or implement activities 
without the financial resources to do so.
    You will need good friends and allies if you want to see successful 
policies implemented on a democratic path and this friendship must be 
rooted, in consistent and positive leadership.
    If we shy away from these democratic responsibilities, we will all 
too quickly find ourselves in a hemisphere of unfriendly faces, 
surrounded by regimes who have rejected democracy, instead choosing an 
ideology of corruption and repression.
    The Covid-19 pandemic that has consumed our lives this past year is 
a pressing example of this. How we as a hemisphere emerge from this 
crisis will determine the future development and stability of our 
democracies. We need a generous and engaged posture from the United 
States, countries within and out of our hemisphere, and the commitment 
of the international financial institutions.
    Governments throughout the region will need assistance in tackling 
the economic fallout and providing much needed social services. We will 
need to pump additional financial resources into restarting economies, 
increased flexibility to face debts and provide loans. We will have to 
strengthen technological capacities as we rebuild our workforce. Each 
of these will be key factors to speed up economic recovery. All of 
these will be essential in maintaining the confidence of electorates in 
the democratic processes governing them.
    Equal access and equitable distribution of vaccines will be 
essential to post-Covid growth and recovery. The Governments of Russia 
and China have engaged early in supporting vaccine distribution in the 
region, in a global roll out that has left many countries behind. The 
recent U.S. commitment to support its immediate neighbors access 
vaccines is a welcome start. More needs to be done to ensure vaccines 
also flow to your third border with the Caribbean, and throughout the 
continent.
    This year, 10 countries in our hemisphere are scheduled to hold 
elections \1\ against a backdrop defined by a pandemic that has all but 
erased a decade of economic progress. With unemployment and inequality 
rising, more and more families are being forced back into poverty. What 
is already threatening to be an uneven exit from this crisis can only 
lead to further discontent and disillusionment with systems of 
government not seen to be willing or able to adequately support the 
needs of its people.
    Shoring up trust in democracy requires the respect for basic norms. 
The peaceful transition of power, for example, is a hallmark of 
democracy. One that simply offers a temporary shift in direction, not a 
scenario where the winner takes all. This is not the purpose of 
democracy, every individual that is elected--chosen by their citizenry 
to represent their voices--is responsible to, and for, all of their 
constituents, even those who did not vote for them. If we allow 
scenarios that do not respect this basic truth to take hold, it is the 
people who pay the highest price because the election becomes about 
power and not about representation.
    There is a certain kind of leadership that does not want to 
relinquish power. For some, when they have been touched by power, they 
are seized with a desperate, selfish need to hold on. Power is their 
path to wealth and business; it provides them immunity and guarantees 
impunity and elections have become zero sum. If the winner takes all, 
and political loss is met with retribution, it inevitably becomes easy 
to justify using any and all means to stay in power.
    Those fearing a loss of popular support resort to false reforms of 
democratic institutions to maintain a competitive advantage. We see the 
politicization of justice. Independent electoral councils are subverted 
with political appointees. Courts are used to overturn electoral 
outcomes, undermine and break up political parties, and ban popular 
figures from running for office. Democratic institutions are coopted, 
coerced and dismantled to consolidate one political grouping's grip on 
power. We must be willing to speak up early, before these practices are 
allowed to take hold.
    These practices have been manifested through a series of flawed 
elections. The so-called elections in Venezuela were a complete farce. 
We must be willing to learn the lesson here and now, and we must be 
sure to learn the rights lessons. Each one of these cases was unique 
and election observation, or the lack thereof, played an integral role.
    The theater that played out in Venezuela's last two so-called 
elections was, without reservation, simply illegitimate. This is a 
criminal, authoritarian regime that has perpetrated crimes against 
humanity against its people. Elections are a cynical show and nothing 
more. Every action taken by this regime is designed to further 
intensify the conditions of internal pressure, taking them deeper and 
deeper into a crisis that has forcibly displaced five and half million 
refugees; allowed grand corruption and gross mismanagement to decimate 
the country's economy; and imbedded terrorist groups and organized 
crime into their system of governance.
    We must also be clear-eyed about the political consequences, ones 
measured in ideas, not in numbers. The perceived success of Venezuela's 
consolidation of authoritarian practices has established a political 
legacy. What is the message they are delivering? Don't give up 
political power because if you do you will end up in jail or facing 
prosecutions.
    What has happened in Nicaragua should represent for us an early 
bellwether-- they have politicized the security apparatus, coopted and 
corrupted the democratic institutions, eliminated the opposition, shut 
down the civic space, and close off to the outside world. Stay in 
power, at any cost. Without significant engagement and effort by the 
international community, elections scheduled for November have little 
hope of being free and fair.
    After the 2017 electoral process in Honduras that was a result of 
deeper, structural problems. The irregularities echoed the same 
problems from previous elections, resulting in the same problems in 
managing the results. The OAS has engaged in reform of the electoral 
process.
    At present, we are working with Haiti about their electoral 
reforms.
    The situation in Guyana was one where support from the OAS 
Electoral Observation Mission proved essential. It was a tenuous 
situation that needed to be handled with care. The EOM, present and 
patient, allowed for the election issues to be settled for a transition 
of power to take place. It was a fluid situation that could have easily 
been broken, and once broken it is much harder to put all the pieces 
back together.
    The situation in Bolivia was an extreme case. With significant 
irregularities, election observers were essential. The electoral fraud 
in Bolivia in 2019 represented a paradigmatic example of ill-
intentioned bad practices with the goal of manipulating the electoral 
outcome. Among other irregularities all of the following were observed:

    Weakening of the electoral authority; intentional stoppage of the 
Preliminary Results Transmission System (TREP); clandestine servers, 
hidden server manipulation; use of a parallel technological scheme for 
improper purposes, improper remote logins into the system; access of 
unauthorized persons to the system; supplying of false information and 
deliberate attempt to hide server; false information regarding servers 
used; malicious and irregular filling of tally sheets; burning of 
electoral materials; the metadata of the TREP images was not preserved; 
the hash value was not recorded in the software freezing act and 
modifications to it were later made in the middle of the electoral 
process, irregularities in handling of foreign acts; residuals of 
databases and the NEOTEC application were found in perimeter servers; 
unexplained and unauthorized entries to the system, the person in 
charge of the NEOTEC company modified the Official Computation (Computo 
Oficial) software during the process on more than one occasion; at 
least 1,575 tally sheets of the TREP (environment whose network was 
violated and manipulated) entered directly into the Official Count; 
through SQL statements (which allow data to be changed without using 
the application) the database was accessed to resolve flaws in a 
calculation algorithm; there was no adequate preservation of the 
evidence on the election; the poor chain of custody did not guarantee 
that the electoral material had not been tampered with and/or replaced, 
original voting records from abroad (unfilled) were found at the TSE 
facilities; and the authentication for the use of the tally (computo) 
system software was weak and allowed someone to take control with 
administration roles.

    As described the situation in Bolivia has been a matter of concern 
for the OAS General Secretariat, which has been monitoring things since 
the fraud in 2019 and even before that. With regards to the fraud in 
2019, the reports of the Electoral Observation Mission and the 
subsequent Audit Mission are public documents and the Organization is 
ready to share further relevant evidence with the Committee. Current 
efforts by the General Secretariat are aimed at ensuring that there can 
be justice without discrimination in Bolivia. Without an impartial and 
independent judicial system, democracy in Bolivia cannot be sustained, 
and the OAS General Secretariat has issued public statements to that 
effect in recent days.
    In order to maintain the confidence of the people, democratic 
processes must be transparent, inclusive, and accountable. The 
processes and rules must be clear and adhered to. In the case of 
elections, the main task of the OAS is to observe and document what it 
witnessed. It is not subjective. When people take issue with our 
reports, it is because they don't like the facts. Strong and continued 
support for robust international election observation will be vital in 
ensuring these processes earn the trust and confidence of those casting 
their ballots. We also need to invest resources and political support 
to follow up on the recommendations for strengthening the reforms 
proposed by these EOMs. And we must prepare for what lies ahead.
    When it comes to elections, the biggest challenge of the future is 
technology. Elections conducted with paper ballots are easy to observe. 
However, with each year, the technology infused into our electoral 
campaigns and processes advances at an exponential rate. By the time we 
adapt to one set of tools, they have already been superseded by updates 
or altogether new tools or platforms that have been newly created. It 
is evolving at a such a pace that makes it all but impossible to keep 
up.
    If we struggle to keep pace with the technology our children are 
using, how do we ensure that our means of observations are evolving 
fast enough to adapt to the tools of tomorrow.
    If we want electoral processes that are inclusive, we also must 
ensure that all citizens have full access to representation and full 
participation. This requires that the right to suffrage is universal 
and equitable, and that the conditions exist for its effective 
exercise. We must ensure that there is equity in voter registration, 
access to polling locations, and the casting of ballots, all of which 
must be considered in our observation activities. Further, this also 
requires that programs and policies carried out by responsible public 
institutions favor the full and effective exercise of both men's and 
women's right to vote on an equal footing.
    We must also address any and all forms of discrimination in our 
society, be it discrimination against marginalized communities 
including women, LGBTI persons, indigenous peoples and communities, 
afrodescendents, migrants, older persons, persons with disabilities, or 
marginalized religious communities, including through anti-Semitism, or 
the targeting of any other marginalized group. One case of 
discrimination is too many, and we must approach this as a problem of 
rights in society as a whole. Ensuring there are free and fair 
elections process, democratic institutions and constitutional 
mechanisms are robust, and there exists the separation of powers and an 
effective and independent judiciary, all people, will secure their 
access to the political and decision-making processes. An environment 
with stronger democracies and rule of law, offers better protection for 
human rights, greater security and more prosperity for religious 
freedoms and all minority communities.
    Security is also essential if we want better democracies. Latin 
American is the most violent region in the world. We need to address 
this problem so that we can better fight against drug trafficking and 
organized crime if we want better democracies.
    The dictatorships of Cuba and Venezuela are permanently at work to 
erode political stability and democracy in the region. With a great 
deal of help from Cuba, the Venezuela dictatorship has created the 
worst humanitarian crisis this region has ever experienced, the worst 
migratory crisis ever in the region, and its dictators have been 
accused of corruption, crimes against humanity and drug trafficking. It 
is also host and safe haven for terrorist organizations including FARC 
dissidents, ELN, and Hezbollah. We urgently need a solution. The first 
step is to unify the international agenda and then to work this unified 
international agenda in order to restore justice and democracy back in 
Venezuela.
    The United Sates will host the next Summit of the Americas. The 
legacy from the 2018 conference is the Lima Commitment, Democratic 
Governance Against Corruption, presenting a hemispheric commitment to 
the fight against corruption. As the hosts of the next Summit, the 
United States has an opportunity to ensure progress continues and that 
these words are translated into tangible actions.
    I applaud the recent proposal for a regional commission to 
investigate corruption in Central American sub-region. By tackling this 
issue at the sub-regional level, it recognizes the transboundary nature 
of the problem, and if combined with efforts to support domestic 
institutions and capacities, has the potential for a sustained and 
meaningful impact.
    At the national level, we need to work with governments to address 
corruption at its root. This requires developing institutional 
capacities with clear and consistent rules and regulations, implemented 
in a transparent manner, that deters abuse, and is complemented by 
credible and independent mechanisms for accountability and enforcement. 
This is much more than a political solution, it requires strengthening 
the rule of law and ensuring that the judiciary can function 
independently, even when it runs contrary to the political interest. 
The main aspiration of any government should be that no one steals. We 
need to help governments make this a reality.
    Efforts to pursue external accountability, without sufficient means 
to prevent the abuses in the first place, are not sustainable. Every 
president and political figure fears exposure. What they need is help 
for their governments in developing capable institutions with the 
systems and incentives necessary to prevent theft or corruption to 
begin with.
    For democracy to succeed, we need to maintain the confidence and 
trust of the public. Well before the world was shut down by the global 
health crisis, large-scale protests were an increasingly common 
occurrence across the hemisphere. Some of these were prompted by 
allegations of corruption, but all were a response to the extreme 
inequality that persists in our hemisphere.
    The recent wave of populism that seems to have seized the global 
political sphere in recent years is not actually a new phenomenon. It 
has always been around. The distinction is that people weren't voting 
for them. The challenge is `why are people voting for them now'? Until 
we address the `why', politics as usual will continue, and political 
figures will keep taking this divisive approach because it is what 
allows them to win.
    The third wave of democracy that brought representative governance 
is what brought us here. Governments must be responsible to their 
citizens, if they want their citizens to be responsible to them. People 
are still poor. They still see inequality everywhere. Inefficient 
governments have failed to adequately address these issues fueling 
political fragmentation and the appeal of populism. And so, populist 
leaders swept to power with promises of political transformation and 
democratic renewal.
    But as our experience tells us, these promises more often than not 
come with measures claiming `fix the system' that do little more than 
undermine governance. The weakening of democratic institutions and 
processes is a narrative that lead to dictatorship. Dictatorships keep 
proving to be the least efficient form of government, but where they do 
succeed is in eliminating the opportunity for their citizens to choose.
    Misinformation and disinformation also affect our politics and 
governance in a manner like that of technology in elections because it 
involves many of the same tools. New technologies have disrupted how we 
relate and interact with one another, inspiring democratic revolutions 
while also providing means for surveillance and the amplifying of 
misinformation.
    Misinformation is not so much a question of fact versus fiction, 
but one of false narratives. These stories are created to install 
doubt. Doubt about the facts, doubts about democracy, its institutions, 
and the work of politicians. And there is only one aim; the erosion of 
public trust and confidence.
    The problem is that people are not, in fact, fighting against the 
use of these false narratives. Instead, the other side is adapting 
these tools and practices for their own ends and countering with their 
own messaging and what we are faced with is a perpetual fight between 
competing narratives. Further, these tools and techniques are being 
industrialized, and troll farms and bots are used to pump out comments 
and amplify the scale and profile of their preferred storyline to 
unprecedented levels.
    We need to develop the methodologies to facilitate the reliable 
integration of technology into our elections and political processes. 
This involves tackling the manner in which this information is shared 
in the public space. This requires regulation, establishing policies 
and standards that guide governments, candidates, political actors and 
the technology firms themselves. And with this regulation, we must 
introduce accountability. Such an endeavor will require sustained 
political interest in determining the appropriate path forward as well 
as the resources to invest in its implementation, oversight, and 
observation.
    We must be careful not look at the encroachment on democracy in the 
Americas from an ideological vantage point. Greed and the hunger for 
power is not something that stems from either the right or the left. 
The suffering our region has experienced at the hands of dictatorship 
has been caused by those claiming to represent the Left equal to those 
claiming to represent the Right.
    The only relevant ideology is one that reinforces our region's 
commitment to the fundamental principles of democracy, human rights and 
the rule of the law, for their antithesis is corruption and repression.
    If there is a message that I can leave you with today it is this: 
esta es nuestra America. This is our hemisphere. A continent that we 
share. Prosperity for one, benefits us all. The United States must be 
prepared and willing to be leaders as our hemisphere faces this 
struggle for democracy.
    At the center of the inter-American system lies the figure of the 
Summits of the Americas. This process began in 1994 when the United 
States hosted the first summit in the city of Miami. In their initial 
period, the summits achieved much as an instrument to advance the best 
democratic practices of human rights and as a weapon against 
corruption. The first summit bore fruit in the world's first anti-
corruption agreement: the Inter-American Convention Against Corruption, 
and for its follow-up, the Mechanism for Follow-up on the 
Implementation of the Inter-American Convention against Corruption 
(MESICIC) coordinated by the Organization of American States until 
today. Similarly, in 2001, in order to face democratic risks in the 
region, the heads of state and government in Quebec City gave 
instructions for the OAS to negotiate the Inter-American Democratic 
Charter, which was finalized the same year on September 2001 in the 
city of Lima Peru.
    We are now in the preparatory phase for the Ninth Summit of the 
Americas, again under the presidency of the United States. As we are 
entering the preparatory phase, it is evident that the recovery of the 
region in its health, economic and social aspects will be very much at 
the center of our concerns, as well as the consequences on the 
democratic values and practice in the region on this the 20th 
anniversary of the Inter-American Democratic Charter.
    The mantle of leadership can be heavy, but it is one that can and 
must necessarily be shared if we are to succeed. This message is not 
just for members of this Committee or for the Government of the United 
States. As citizens of the Americas, and Members States of the OAS, we 
each have the responsibility to act as leaders when it comes to 
fighting for just cause, and there is no cause more just than that of 
human rights, democracy, the rule of law, and development.
    We must choose to support our friends and work to strengthen the 
democratic institutions that serve our people. We must remain committed 
for the long haul, working on sustained programs that support 
democratic institutions, even when the work appears tedious and 
mundane, especially then. Focusing on elections is important, but it is 
not enough. Democracy is a process which must continue to be 
strengthened and evolve, well after election outcomes drop out of the 
headlines. Governments must be prepared to deliver in the days and 
months after because that is where democracy itself will win or lose. 
It is ensuring a quality of life while providing guarantees for the 
fundamental rights and freedoms of a people that will win hearts and 
minds.

----------------
Note

    \1\ Ecuador, El Salvador, Chile, Haiti, Peru, Mexico, Argentina, 
Paraguay, Nicaragua, Honduras.

    The Chairman. Thank you, Mr. Secretary General, and we will 
go through round of 5 minutes of questions. Let me start off 
with, the demolition of democracy in Venezuela has led to the 
emergence of a failed state and the Venezuelan people suffering 
a political, economic, and humanitarian crisis unrivaled by 
anything in our Hemisphere. Under the Maduro regime, 
criminality and corruption rein. Both the OAS and the United 
Nations have produced evidence that the regime is complicit in 
crimes against humanity.
    I know you have been outspoken about the situation in 
Venezuela and its impact on the region as well as the urgency 
for the international community to do more with reference to 
this crisis. What additional steps should the international 
community, and, specifically, countries in the Americas, take 
to mitigate the crisis and restore democracy in Venezuela? What 
additional steps can the OAS take to advance that agenda?
    Mr. Almagro. Thank you, Senator. Venezuela is an extreme 
case if you want to target the worst dictatorship we have ever 
had because it includes--we can see there, the dictators of 
Venezuela are accused of crimes against humanity in the Hague 
Convention. They are accused of drug trafficking in New York. 
Nephews of the President are in jail in the United States 
because of drug trafficking. Corruption is the highest ever in 
the history of the Hemisphere and maybe the history of the 
world.
    Just to put a case, all the black corruption amounted for 
something like $800 million in bribes in 15 years, all the 
cases of all the black corruption. The corruption of--just one 
case of PDVSA, the Venezuelan oil company, in Florida is $1.5 
billion. That means it is double of the whole corruption--all 
the black corruption in 15 years, just one case of corruption. 
That is why the amount of corruption of the Venezuelan regime 
targets about--at least $90 billion. That is a Marshall Plan in 
currency now, so that is what the Venezuelan people are paying.
    This dictatorship brought the worst humanitarian crisis 
ever in the history of the Hemisphere, the worst migration 
crisis ever in the history of the Hemisphere, brought the worst 
cases of hosting terrorists in the history of the Hemisphere. 
There you have FARC dissidents, ELN, plus you have 
international terrorist organizations, like Hezbollah. So 
practically, we have the worst of the worst in the Venezuelan 
dictatorship.
    The issue is that we have a very fragmented international 
agenda, and we need to unify that international agenda if we 
see the strategy of the regime is to fragment agreements with 
different actors in the international community. So they have 
their own conversations with the European Union. They have 
their own conversations with Norway. They have certain 
conversations, of course, with some other actors in the 
Hemisphere, out of the Hemisphere with China and Russia. We 
have also different political actors interested in 
participating in a--in a different level. We have--these cases 
do not help to bring democracy back to Venezuela.
    The Chairman. So forgive me for interrupting you. So then 
is what you are saying that a multilateral approach that is 
coordinated, whether it be on sanctions or, for that fact, 
humanitarian aid----
    Mr. Almagro. It has----
    The Chairman. --to the people of Venezuela is what needs to 
be marshaled together?
    Mr. Almagro. It has to be a coordinated international 
agenda.
    The Chairman. Uh-huh.
    Mr. Almagro. We have to have a common international agenda 
related to Venezuela. We have to unify the agenda that--with 
Norway, and European Union, United States, the Organization of 
American States, and the rest of the countries involved in the 
Venezuelan case, with a special participation of the neighbors.
    The Chairman. Let me turn to one other question because my 
time is about to expire, so I have a sense of what that 
requires. It is interesting to note that the Venezuelan 
opposition is, for lack of a better name, is in meetings to try 
to bring together civil society, different political parties, 
and other elements in a common agenda, which I think would be 
very important. I want to ask you about one of the most 
troubling trends in the Americas, the lack of respect for 
separation of powers by certain elected leaders, whether it is 
a President that urges a mob to disrupt the certification of an 
election, or a President that enters a legislature with armed 
members of the military, and an act of intimidation. There are 
concerning examples that I could--that I am sure you are aware 
of throughout the Hemisphere in El Salvador, Bolivia, and 
elsewhere. Each time an elected leader seeks to dismantle 
constitutional checks on power and weaken the rule of law, it 
shakes citizens' confidence in their democracy.
    Can you speak to us about the importance of respect for the 
separation of powers, and what ultimately is at risk when 
elected leaders in the Hemisphere abuse the power of their 
offices to undermine democratic institutions and processes? And 
what tools do you have or would you like to reinforce the 
importance of the separation of powers in the Hemisphere?
    Mr. Almagro. The main tool we have, of course, is the 
Inter-American Democratic Charter. And in that sense, for 
example, we were--we were called to go to Guatemala in 2020 and 
to El Salvador in 2021 because of the concerns of the different 
branches of government related to how check and balances were 
working, and there we provided, of course, our assistance. We 
focused mainly on political dialogue. We worked on 
strengthening the institutions. We worked hard in bringing new 
capacities, and human resources, and technology to these 
institutions. And, of course, we worked very hard in ensuring 
that the elements of corruption or organized crime do not 
affect this--the work of this institution.
    So the main tool that we have always is the Inter-American 
Democratic Charter. We issued a couple of communiques related 
to Bolivia lately when it started something that, of course, a 
discriminatory way of the Bolivian judiciary to approach 
politics, absolving ones and lynching others. So that, it 
cannot work, never. We have to be always aware that the 
independence of branches--of different branches of government 
is the most important tool in democracies, and checks and 
balances is an imperative in our--in our democracies in the 
region.
    So we have worked hard about this matter. We try to push 
forward in this direction. And the tool we have and the 
commitment that we have with the Inter-American Democratic 
Charter, it will be the main element in order to try to stop 
this--these cases.
    The Chairman. Thank you very much. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman. Let me stay on 
Venezuela for a minute here. The U.S. led a successful effort 
to build a coalition of like-minded countries within the OAS to 
invoke the RIO Treaty, and increase multilateral diplomatic 
pressure on the Maduro regime in Venezuela. In your opinion, 
what effect has the invocation of the RIO Treaty had on the 
Maduro regime?
    Mr. Almagro. I think--it worked--it worked very well, and 
it hurt the regime. The way that it was approached, the case of 
Venezuela and the Organization of American States on the RIO 
Treaty, was very important in order to increase the pressure on 
the regime and not allow the regime to enjoy impunity for their 
actions. So the legitimacy of the Government was declared. 
Sanction to their--the leaders of the dictatorship were 
established. These sanctions, of course, focused on persons and 
procedures--targeted procedures that were working not in a 
proper way within the regime. A lot of the financial mechanism 
of PDVSA was in order to make it--to do money laundering or 
drug trafficking or corruption.
    So we have a lot of--a lot of tools that have been 
implemented already, but have been implemented mainly by the 
United States and have been implemented by a couple of 
countries. Panama was one of them, and--but it was practically 
the only country in the Americas who implemented those--
implementing those sanctions. I think the capability of these 
sanctions is important, that it is done by the whole Hemisphere 
to have a positive result of pressure on this regime.
    What the United States have been doing, it is extremely 
relevant. The multilateral effort and multilateral pressure has 
been an important tool. But to work properly, we need to--
everybody in the world, every country in the world, and 
especially those committed to democracy, to act in the same 
way, under the same pattern, and creating the same conditions 
of pressure because, of course, it will never work if you put 
pressure on one side and somebody release the pressure on the 
other side. That is why I mentioned today the need to unify the 
agenda, a multilateral--a multilateral approach that will put 
everybody on the same page.
    Senator Risch. Well, thank you for that. Speak for a 
moment, if you would, about what you see the future of all this 
is. I think all of us have been greatly disappointed as to how 
long Maduro has hung on. I remember sitting in this committee 
shortly after Maduro took over, and everyone was predicting 
short-lived, and that Juan Guaido would be properly recognized, 
and the country would shake itself off Maduro and go forward, 
and, of course, that has not happened. And when you get to this 
position, you start thinking are we headed for another multi-
decade situation like happened in Cuba or other countries. What 
is your sense of timing? What is your assessment of how this 
thing ends, how it moves forward from what the current 
conditions are?
    Mr. Almagro. I think more needs to be done, and more by 
different actors of the international community. It is very 
difficult for Venezuelan actors to create conditions to reverse 
the political situation. First of all, what they have done 
internationally, fragmenting the international agenda, they 
definitely have done it internally within the country, 
fragmenting the opposition with partial agreements with all 
political actors. And that fragmentation of the agenda, of 
course, brought a lack of perspective of the real objective and 
the need to have a real objective that is the democratization 
of the country.
    President Guaido has done what was at his reach, but--and 
according to the resources he had, he did an extraordinary job. 
He definitely needed, and he still needs, more international 
support, not only in the terms of recognition, but also in 
practical terms that can help him in order to definitely be 
able, with material resources, to change the situation. And for 
that, of course, we have to understand that this country is 
suffering the worst humanitarian crisis ever. It has suffered 
the worst migration crisis ever. So mobilizing people these 
days in Venezuela--mobilizing the people these days in 
Venezuela is not so easy. Half of the people is without food or 
without medicines and living a miserable life. They cannot 
march because they do not have shoes. So that is the situation 
of the Venezuelan people today.
    We definitely need to address the humanitarian situation of 
the--of the people in Venezuela, but we need to create 
internationally the conditions in order to have a unified 
agenda, as I said, that would be able to support strongly 
those--that they have a way of moving forward in a strong way 
against the dictatorship. Dictatorships, they collapse under 
pressure. They never collapse if they do not--if you do not put 
pressure on them. They can last for decades. And pressure 
definitely is the biggest element, the biggest tool, 
international pressure, in order to make the life of the 
dictators of Venezuela miserable and in order to be able, in 
that sense, to support the country.
    The biggest sanction that--the most cruel sanction that 
the--that the Venezuelan people has suffered has been to suffer 
this dictatorship that created all these conditions during this 
time. That is definitely is an imperative for us to be able to 
reverse that situation, and we have to use all diplomatic and 
political tools available to do so.
    Senator Risch. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Thank you. Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Mr. Secretary 
General, thank you very much for your service, and thank you 
for joining us today. As we talk about the status of democracy 
in our Hemisphere, we need to look at the status of good 
governance, and, unfortunately, we have so-called democratic 
states that have weakness in governance that we really need to 
work on.
    Last year, the Congress passed legislation that Senator 
Wicker and I introduced that dealt with strengthening the 
parliamentary aspects of the Organization of American States, 
calling on a formal mechanism to involve parliamentarians in 
the operations of the OAS, including considering an annual 
forum. We use the example of the OSCE, in which the 
Parliamentary Assembly has been very effective in promoting 
good governance.
    I would just give you, by way of example, the initiation of 
the trafficking commitments globally to fight, human 
trafficking, to deal with the Global Magnitsky statute, came 
out of the Parliamentary Assembly. Many of us have participated 
in free and fair election observation teams that have been in 
country. I was with Senator Portman in Ukraine as we observed 
elections. It gave us a much better feeling of the 
circumstances, and, quite frankly, we are not as restrained as 
diplomats are in the nicety of language. We can go back and 
speak truth to power as to what needs to be done. Are you 
committed to working with us to implement greater 
parliamentarian participation in the OAS?
    Mr. Almagro. Yes, Senator. Thank you very much. Yes, we 
are--we are ready, and we have talked about this issue. I think 
it is a very important matter, and a stronger connection and 
stronger links of U.S. senators and congresspeople to--with the 
parliaments of the Americas will be extremely helpful in order 
to provide stronger parliaments everywhere in the Hemisphere 
and, of course, better capacities of these parliaments and 
parliamentarians. So we are ready to work together.
    It was a pity that COVID-19 stopped this, but as soon as 
normal life is restarted, I am sure we can--we can create 
conditions for a stronger participation of United States' 
senators and Congress in order to engage better in the 
activities of the Hemisphere, and definitely create different 
conditions for them--for their work, and that will create 
definitely stronger democracies.
    Senator Cardin. I would just point out that when 
parliamentarians are involved, there is a much better chance 
that the policies adopted by the Organization will be 
implemented in their particular states because they go back and 
act and promote the policy. So it not only gives you a richer 
involvement to deal with the problems of our Hemisphere, it 
also gives us a better chance to see implementation of those 
policies in the member-states.
    There is a very troubling trend in our hemisphere, and that 
is corruption. For a hemisphere that brags about having 
democratic states, we lead the world in the number of states 
that ranked the worst in fighting corruption. Venezuela is 
ranked 176th out of 180. Haiti is ranked a 170th out of 180. 
Nicaragua, 159th out of 180 in their suffering from corruption. 
And I could mention Honduras, Guatemala, Paraguay, Dominican 
Republic, Mexico, and Bolivia. All those are well above the 
world average. So my question to you, what initiatives are you 
pursuing within the OAS, and how can we help you in dealing 
with the increasing concerns about corruption which erodes 
democratic institutions and makes it much more difficult for us 
to have true democracies in our hemisphere?
    Mr. Almagro. Thank you very much. I think we have to start 
with supporting governments today in order to have more 
transparent policies, more transparent and fair mechanism and 
procedures that would not allow--will give less margin to 
corruption. If I could be ruling a country today, my first 
objective, my top priority would be that nobody around me 
steals anything. Nobody in my entourage of government would 
steal anything because that will bring a lot of problem for the 
current government and, of course, for the welfare of the 
ruling leader today. So I think we have to create stronger 
programs and projects in order to support cleaning inside of 
these governments today. Government transparency, more 
transparent government--governance, all that is extremely 
necessary and should be promoted in the hemisphere.
    And then to have a more able justice--more able justice 
systems around in order to fight corruption and previous 
corruption. To end the impunity of corruption, that is 
something that still--we have moved from a certainty of 
impunity to a possibility of justice, but we are very far away 
from a certainty of justice that we need to achieve in the 
Hemisphere. Definitely, it is a structural problem, structural 
in most--in the political systems that you mentioned that 
practically where you have to reset them and restart them, and 
making them work in a completely different manner. The way they 
are doing their job, definitely today it does not work, so it--
we need to create new capacities, and we need to provide 
assistance in order to rule in a different way. If they keep 
doing the same--I mean, you can judge them later. You can 
prosecute them. The same problems will keep appearing.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Romney.
    Senator Romney. Thank you, Mr. Chairman, and, Mr. Secretary 
General, I very much appreciate your being here and appreciate 
your service to the OAS and to our hemispheres. And I presume 
that being the father of seven qualifies you for the kind of 
interactions you have to have with leaders of various 
countries. It is not lost on you or any that watch what is 
happening in the world to recognize that there is a great 
competition going on in the world between a future that 
includes democracy and liberal democracy, and instead an 
authoritarian future. And that is playing out in Latin America 
as it is throughout the world.
    As you look at what is happening in Latin America, how much 
of what we are seeing there is a result just of domestic 
passions and interests, and how much is being influenced by 
foreign actors? And by that, I mean ourselves--the United 
States--Russia, China, whether Venezuela or throughout the 
continents. Is this a domestic issue that we are seeing, 
domestic passions playing out, or is this instead being 
influenced to a great degree by China, Russia, and the United 
States? And what is our relative capacity, meaning, how 
effective is China being compared to the United States, for 
instance? So I know I am asking a lot of questions there, so I 
will let you respond as you feel appropriate.
    Mr. Almagro. Thank you. Thank you very much, Senator. And, 
yes, we have structural problems in Latin America. Those 
particular problems is, for example, we are the most unequal 
continent in the world. Another structural problem is violence. 
We are the most violent region. We kill--we have more violent 
death than any other region in the world. We have had 
structural poverty of the same kind for hundreds of years, I 
mean, and I always put the example of my country where we seem 
to be the most equal country.
    Uruguay seems to be the most equal country in Latin 
America, and still you have the same structure of poverty that 
250 years ago when Arteaga did the land reform of the country. 
That means, for example, the descendants that is 8 percent of 
the population, they count for 40 percent of poverty. Those 
days where it was children, today are single mothers that count 
also for a huge percentage of the poverty of the country. We 
have structural poverty--structural problems that we have not 
been able to resolve. Our countries, of course, they are facing 
corruption, and that, of course, creates--offer conditions for 
the functioning of democracy. Organized crime, drug trafficking 
have created structural problems, and very difficult to make 
elections when you kill candidates all about, when the 
candidates are killed all about, or some others resign in order 
not to be killed. You see that you have there structural 
problems in how democracy can work.
    So I think we have been more efficient in destroy--in Latin 
America, we have been more efficient in destroying democracy 
than the international support that we have had for that. Of 
course, some--this country believes in democracy, and so they 
are always trying to influence the right decisions, the 
separation of the--and independence of branches of government, 
the free press, freedom of expression, the fight against 
corruption. Of course problems of security are all about the 
hemisphere. And some countries, they do not have that as a 
pattern of their political systems, so, of course, they are not 
so interested in promoting that. Whatever is there, it may work 
for them, but sometimes corrupt regimes may be better in a 
sense that it is easy to operate. If you do illegal mining, it 
is easier in Venezuela than in a democratic country. If you do 
an ecosite, it is easier in Venezuela than in a democratic 
country.
    So even if these factors intervene, and, of course, we have 
a regional factor, and that is Cuba. That is a dictatorship of 
decades that is still there, and have worked very hard in the 
60's, 70's, promoting unrest all about the hemisphere, just 
trying to destabilize democracies in their own way. It is a 
failed system. That system never worked in the world. It did 
not work in Central Asia. It did not work in Eastern Europe. It 
did not work in the Soviet Union. It did not work in Cuba, and 
now it is not working in Venezuela. And so, but their political 
approach is always to create problems for the others, to make 
their problems sort of less evident.
    And, of course, their presence in Venezuela, it is clear 
how they have influenced Venezuela to go that track. The 
presence of 20,000 Cubans in Venezuela is a problem. It is the 
biggest problem that Venezuela is facing, and if you want to 
have a democratic Venezuela, one day Cuba will be part of the 
problem and not part of the solution. I am sorry for that. They 
have been part of the problem the past 18 years, 20 years. So 
we assume--we have to assume our faults and our shortcomings 
and our mischievous behavior, but, of course, sometimes some 
have helped to go down the cliff.
    Senator Romney. Thank you.
    The Chairman. Thank you. I understand we have Senator 
Rounds virtually.
    [No response.]
    The Chairman. Senator Rounds?
    [No response.]
    The Chairman. All right. Let me move to Senator Young.
    Senator Young. Welcome, Mr. Secretary General. It is good 
to have you before the committee. Your testimony today 
describes the work that Russia and China are doing through 
vaccine diplomacy. It is clear that both countries intend to 
use this crisis, which, ironically enough, emerged, it seems, 
from China, and was certainly exacerbated by China's failure to 
disclose in a timely fashion the gravity and nature of this 
virus. We still do not have all the information. But 
nonetheless, it is clear that both of these countries intend to 
use their vaccines as a tool to accomplish a broader foreign 
policy set of goals and to develop inroads similar to what we 
have witnessed China do with its Belt and Road Initiative.
    In recent days, I have heard that China is providing 
vaccines to some countries in the Caribbean and throughout 
Latin America in exchange for changing their diplomatic 
relationship with China or recognition of Taiwan. If 
successful, this would be a significant shift in the People's 
Republic of China's favor as a majority of Taiwan's diplomatic 
partners globally are in Latin America currently. So, sir, are 
you worried about countries receiving these vaccines with some 
potentially significant strings attached?
    Mr. Almagro. Yes, some countries have been--India, for 
example has already--has also provided donations--mainly 
donations to Caribbean countries. And, of course, this makes 
countries grateful because when you do not have--you do not 
find solutions anywhere else, you find solutions wherever you 
can in order to vaccinate your people. So that is why I asked 
during my presentation for a stronger commitment of the United 
States of America in order to deliver--you have delivered 
vaccines to Canada and to Mexico. You have a border that is 
CARICOM countries, Caribbean countries. They should be attended 
to. They should be taken care of, too, and the rest of the 
hemisphere.
    And that is the most relevant matter today to be close in 
this situation, and it is a relevant matter. And to work in a 
positive way in order to deliver solutions to the country of 
the hemisphere, it will be something that will be good for 
everybody. I mean, most of these countries have looked to buy 
vaccines here, and that is something that have been--to be 
taken care of. I mean, they have looked here to--in order to 
buy the vaccine, so something have to be stronger. Solutions 
should come from here, not only for the borders, but also for 
the rest of the continent.
    Senator Young. Yes. You know, it is such a difficult 
challenge. As you might imagine, every country wants to ensure 
that their people are cared for. That is what countries do. 
They care for their own people. But at the same time, we have 
allies and partners, especially those here in our region that 
we would also like to be helpful, too, in addition to providing 
those vaccines, which, of course, no doubt is essential. You 
have emphasized that. China, there again, ironically has been 
the first to emerge from this pandemic seeing as they have a 
better understanding of its nature, and they have an 
authoritarian government that can enact certain strictures that 
democratic governments cannot. But with that said, how else 
might we empower OAS to push back on these coercive practices 
that we have seen China utilize in exchange for vaccines?
    Mr. Almagro. First, we have an issue, and sometimes they 
have been asking why do you not do more about vaccines? And the 
thing is that we have the Pan-American Health Organization that 
is mainly in charge, and I think the most successful way is to 
deliver before. That is the most successful way in order to 
reverse those policies, and to be able to deliver before. That 
is--that they think should be the practice and that should be 
the policy behind.
    Of course, sometimes it is harder because of the way that 
our regime can concentrate resources. Financial, economic, 
material resources is completely different than--in the way 
democracies--but democracies has proved to be more efficient in 
the in the mid and long term, but they have to see the 
scenario. Of course, everybody also is concerned about itself, 
and it has to be something like that. It is completely 
understandable. Nevertheless, to be concerned about and find 
solution for our self and for itself, anyone, and it is helpful 
to help others, and that, I think, is--should be the policy 
to--of the United States to the rest of continent related to 
this matter.
    Senator Young. Well, just for the record, I think it is 
wonderful that the Caribbean countries and Latin American 
countries are receiving vaccines. I think that is a very 
positive thing, and I would commend any nation for--in 
isolation for doing that, for ensuring their fellow human 
beings are vaccinated from this pandemic. That also helps all 
of us so that it does not continue to spread and evolve into 
other strains. It is this conditionality that I think each of 
us has sort of a responsibility to talk about so that the 
nature of these authoritarian regimes is made very, very clear. 
Thank you.
    Mr. Almagro. Thank you.
    The Chairman. Thank you.
    Mr. Almagro. These questions should not be possible. That 
is the most important part. We should make it possible. We 
should make it available, and that is what--how we should act 
in order to avoid this, and then to give support afterwards in 
order to avoid any kind of this kind of questions. But you also 
have to consider that China is the main trade partner of most 
of Latin American countries. They have relations or not--or 
they do not have relations with continental China, and that is 
an assumption that, of course, need to be--needs to be 
addressed. We need better trade among ourselves, and that is 
something that we will have to work in the--in the future. And 
I think that--I hope the Organization can encourage some 
actions related to have a stronger inter-trade in the--in the 
Americas.
    Senator Young. I support that. Thank you.
    The Chairman. Thank you. Thank you very much. I do want to 
piggyback on Senator Young's comments. Of course we have to 
take care of our people in order to be healthy and, therefore, 
be able to lead. But I do agree that, to the extent that we 
have capacity when we get beyond that, I would hope that the 
hemisphere will be one of the first places that we will look 
towards in our own national interest, to be very honest with 
you, not only as a good neighbor, but, because we are 
neighbors, we are more likely to have individuals traveling 
within the hemisphere, you know, within our country and beyond. 
The many millions of diaspora that exist in the United States 
from these separate countries just creates a natural flow of 
people coming back and forth. And I think it is right to call 
China out on its course of policies on this, which is the most 
heinous of all, trading and say I will give you a vaccine if 
you do this, but they have other course of policies that they 
do in terms of their investments.
    By the same token if you are suffering and you are looking 
for something, and you have got nowhere else to go, then you 
maybe submit yourself to those course of policies, as wrong as 
they are. And so that is why I hope the United States will get 
to the point to be supportive, particularly here 
hemispherically. I think there are many reasons for it. With 
that, let me recognize the chairman of the Western Hemisphere 
Subcommittee, someone who has had a long history and been very 
interested in the hemisphere, Senator Kaine. And I am going to 
ask Senator Cardin to preside because I have a Banking hearing 
that I just need to get a few questions in. I will be back. 
Thank you, Mr. Secretary.
    Senator Kaine. Thank you to Chairman Menendez and Senator 
Risch for holding this hearing, very important hearing. I am 
thrilled to be the chair, together with my ranking member, 
Senator Rubio, on the Committee on Western Hemisphere, Human 
Rights, Global Democracies, and Women's Empowerment. And, Mr. 
Secretary General, I am a big fan of yours. I really want to 
focus on how we can help the OAS to be effective, and I am 
going to use a painful example for me, which is activities of 
the OAS, and United States, and Honduras where I lived in 1980 
and 1981.
    In the 2017 presidential elections in Honduras, there were 
huge irregularities. We want the OAS to be strong and be 
willing to call out problems throughout the region. We 
celebrate what the OAS has been willing to do, for example with 
respect to Venezuela. But after the Honduran presidential 
election, the OAS called out the irregularities and said they 
were so severe, that the recommendation from the OAS was that 
the election needed to be repeated so that those irregularities 
could be cured.
    The United States wants the OAS to be strong, but in that 
instance, the previous Administration undercut the OAS. The OAS 
said the elections need to be rerun. I and other members of the 
committee came out in support of the OAS position, but the 
previous Administration said, no, we are going to go ahead and 
recognize the new government anyway. And they recognized the 
reelection of President Hernandez because he had done a variety 
of things that the Administration liked.
    After we recognized the reelection over the recommendation 
of the OAS, President Hernandez terminated a transparency 
initiative that was a global transparency initiative that he 
had embraced with some strong PR sense in his first term. 
Violence and corruption in Honduras spiraled downward. 
Immigration of Hondurans to the United States has increased 
because of the violence and corruption. And as members of this 
committee know, the President's brother--President Hernandez's 
brother was convicted of drug trafficking with a lot of 
evidence that implicated the president. And there was just the 
completion of a second sizeable drug trafficking case in the 
Federal courts of New York against an associate of President 
Hernandez, where there was much testimony about President 
Hernandez's role in facilitating drug trafficking, including 
evidence that he had stated, ``We are going to shove drugs up 
the gringos' noses.'' That was some of the evidence of this 
President that the U.S. chose to recognize over the OAS' 
objections.
    If we want the OAS to be strong, Mr. Secretary General, and 
we want the OAS to be able to take tough positions, it seems to 
me that the U.S. should be defaulting toward trying to support 
the OAS in that rather than undercutting the OAS' tough 
decisions when they make them. Share with us how we as a 
Foreign Relations Committee in the Senate can help the OAS be 
strong in the region to counter corruption, violence, and other 
ills that plague us.
    Mr. Almagro. Thank you. Thank you very much, Senator Kaine. 
It is true we identified irregularities in the Honduras 
election. We made them public. We called for a new election. 
After 15 days--let us say, about 2 weeks later, we started the 
recognitions of the new government of the Government of 
Honduras, of the reelection of President Hernandez. So 
practically, we were left talking alone about this matter 
worldwide, and definitely that we paid a huge toll because 
after that, the mission of--to fight corruption was not renewed 
and, of course, we had to pick up our things. Some of them----
    Senator Kaine. And, Mr. Secretary General, when you say 
``we paid a huge toll,'' ``we paid a huge price,'' you mean the 
OAS paid a huge price. The Honduran people paid a great price. 
The United States paid a great price by, you know, not striking 
against an authoritarian, and now we are dealing with a crisis 
at the border that is driven by intense violence and corruption 
in a country. And so we are--if we do not act to support 
organizations like the OAS, we will end up seeing things that 
we are not happy with.
    Mr. Almagro. I agree with you because bad practices have to 
be eradicated from the very beginning, and the Honduras 
political system paid a huge price. The Honduras people paid a 
higher price. The Organization, of course, of all the prices 
that were paid was the lowest. We can say we just picked up our 
things and we left. Some of the resources--material resources 
we had, we are using now in El Salvador and the mission that we 
have there to fight corruption.
    Senator Kaine. And, Mr. Secretary General, I am over my 
time, and there are other colleagues who want to weigh in, but 
just--let us just finish there. By not supporting the OAS at a 
critical moment when you were willing to show backbone, 
Hondurans paid a major price, the OAS paid a price, and the 
United States paid a price as well. I hope we might learn that 
lesson. Thank you.
    Mr. Almagro. Thank you.
    Senator Cardin [Presiding.] Senator Hagerty.
    Senator Hagerty. Mr. Chairman, Ranking Member Risch, thank 
you very much for holding this hearing. Secretary General, it 
is nice to have you here today. Thank you very much. Secretary 
General, in the Western Hemisphere, we have seen governments 
use illegitimate means to change or even nullify election rules 
and processes related to their democratic elections. The 
illegitimate Maduro regime in Venezuela is the most recent 
example of this type of activity. For example, in May of 2018, 
the illegitimate Maduro regime repeatedly changed, abused, and 
rewrote the rules in order to hold a sham election that failed 
to meet any sort of international standard for fair, free, and 
transparent voting. And more recently, the illegitimate Maduro 
regime has sought to stack and manipulate in its own favor 
Venezuela's federal election commission.
    Secretary General, would you agree with the general 
proposition that the voting public's confidence in free and 
fair elections, including impartial and transparent electoral 
processes, is necessary and critical to a well-functioning 
democracy?
    Mr. Almagro. I completely agree. It is--that is the 
starting point of democracy----
    Senator Hagerty. Indeed.
    Mr. Almagro. --for the people to be able to elect in a free 
way, transparent, just, and that the votes are counting--
counted properly. That is all about--it is about the integrity 
of the electoral process. We have to see it from practically 
the very beginning, and we have to monitor practically every 
single aspect of it. Today, the challenges are big because 
technology is--keeps improving, and, of course, we have to keep 
track with technology. At the same time, we need to be able to 
read adequately the political system and how it works. We 
observe elections. We observe facts, and we denounce those 
facts, and we document them, and we prove them. And those 
countries that they want, we can help them in order to have a 
better electoral process like we are doing now in Haiti and in 
Honduras.
    It is a hard work. Sometimes it is a very demanding work. 
The Venezuelan case is an extreme case because, I mean, 
elections there are not elections at all. They do not have any 
pattern that is common with any election anywhere. I mean, they 
do fraud among them. For example, there was this election of 
the National constituency--Constituent Assembly, and that was--
the position was not participation. Nevertheless, they pumped 2 
million votes in order to make one of the parties--one of the--
one of [Speaking foreign language], one of [Speaking foreign 
language]. That means they cheat among themselves during the 
election, so that is the most extreme case that I have seen in 
the hemisphere so far.
    Senator Hagerty. Well, Secretary General, would you agree 
with the general proposition that a democracy risks 
fundamentally eroding itself when those in power change or 
negate election rules simply to stay in power?
    Mr. Almagro. I completely agree. I can sign below 
definitely.
    [Laughter.]
    Senator Hagerty. I would agree with that, too, and we are 
witnessing it happening right here in America today, at least 
an attempt. Secretary, what do you hope that the members of the 
OAS will be able to accomplish in terms of helping the 
Venezuelan people find their way back to democracy?
    Mr. Almagro. I think, first, we need to attend the urgent 
matters. The urgent matter is the humanitarian crisis, and that 
means we need to find mechanisms and tools in order to support 
the people to have food and to have medicines. That is the most 
urgent matter related to Venezuela. About the institutional 
issues in Venezuela, I suggested today that we need a--we need 
a unified international agenda that can help to create real 
pressure on the regime and move under a mechanism that can 
definitely make harder for Maduro to stay in power than to 
leave it. Until that--does not happen, the regime will stay 
there. This is--these kind of regimes, you definitely have to 
pump sustainable pressure. If not, they do not have any 
connection with political welfare of the people, I mean, and 
you can see it also with the Cuban regime, and you can see it 
in Venezuela.
    They are not responsible for what is going on with the 
people. If people are dying because of lack of dialysis, they 
do not care. Children die because--they died because they do 
not have vaccination of diphtheria, and they do not care. 
Something that would bring down government--democratic 
governments anywhere, they do not care. They do illegal mining. 
They do drug trafficking. Their levels of corruptions are the 
highest ever, and they do not care. They have illegal mining. 
How would a dictatorship have illegal mining? Because they can 
approve whatever they want in order to do the mining in their 
own way. They do illegal mining because they can steal 
everything that they took from the mine because it can do--and 
a complete ecosite of the system.
    And they--and they are not responsible. They are not 
responsible about their natural resources. They are not 
responsible about the mineral resources. They are not 
responsible for their people. That means they do not have a 
political connection. It is a criminal gang acting in a 
criminal way. Until they are not completely surrounded, they 
will not surrender.
    Senator Hagerty. Thank you, Secretary General.
    Mr. Almagro. Thank you.
    Senator Cardin. I think your response underscores the 
importance to deal with corruption and transparency that you 
have talked about before. Senator Schatz is recognized.
    Senator Schatz. Thank you, Mr. Secretary General. Thank you 
for being here. I want to ask you about the war on drugs. Over 
the last several decades, we have struck a better balance in 
terms of our approach to combining security assistance with 
funding democracy programs, programs that strengthen the 
judiciary, law enforcement, and civil society. But the war on 
drugs, in my view, is still failing our partners in the region. 
We are making short-term decisions to get a good headline about 
seizing drugs without thinking through the consequences for the 
people. For instance, the U.S. Coast Guard is great at closing 
down maritime routes and interdicting drugs that come over the 
water, but we see increasingly that cartels have turned instead 
to overland routes, clearing forests to build remote airstrips 
and seizing land from indigenous tribes and local communities. 
Too often, this is done with impunity, and it shakes people's 
trust in the ability of the national and local governments to 
protect the lands.
    So I have a basic question for you. Is the war on drugs 
working? Is the war on drugs working?
    Mr. Almagro. It is not working either in the sense that it 
is not delivering the results that we need in the hemisphere, 
and it is very easy to see. My whole budget--the whole budget 
of this Organization, not the money that we allocate to--for 
projects related to drug prevention or fighting organized crime 
pr drug cartels, is less than $80 million dollars. That is a 
joke in drug trafficking terms, in financial drug trafficking 
terms, so we are definitely not well prepared at the 
multilateral level in order to do so.
    We do projects. We encourage best practices. We help in 
order to develop better life in certain communities. We have 
been able in order to create better conditions for security in 
some communities, but overwhelmingly, it is--drug trafficking 
is affecting democracy. It is killing candidates. It is forcing 
candidates to resign. It is electing--sometimes there are 
mayors of their--sometimes they are heads of police. So it is a 
struggle where we are not achieving the results that we 
definitely owe the people to achieve.
    Senator Schatz. Is it a question of our strategy being 
flawed, or is it a question of insufficient resources? Because 
it seems to me that our instinct in the Congress is always to 
throw more resources at interdiction, even though we have seen 
over the many, many years, with demand never really waning, 
supply finds a way north. And so I am wondering, because I want 
to get clear here. You talk about the lack of resources, and 
the worry I would have is that then Congress throws more 
resources at interdiction, which, again, allows us to stand 
next to a bunch of illegal product and claim victory when 
things get worse and worse in the region.
    Mr. Almagro. And maybe you are right. I have a view, and it 
is related to my own experience somewhat. I did in the past, in 
the days I was minister of foreign affairs of Uruguay, is you 
have to find a way to kidnap, that it is about the market now. 
That is the market rules. So, so far, the market will keep 
demanding, this will keep going on, and on the rest of the 
chain will put pressure on the rest of the chain. And we have 
to address how the market of drugs work in a more proper way, 
and to be able to kidnap part of that market with the better 
tools you make up, and consider the differences of the 
different drugs between them, and, of course, be able to 
support people in a----
    That means a lot of things. It means security first and how 
to make a living, and that is the--are the biggest challenge 
for common people. And, of course, the lack of development of 
our country plays a major role in the problems of violence and 
collateral effects of the drugs that we are facing these days.
    Senator Schatz. Thank you very much.
    Mr. Almagro. Thank you.
    The Chairman. Thank you. I understand that--okay. My 
understanding is that there is no one on either side virtually, 
unless I hear differently. And in the absence of hearing 
anyone, Mr. Secretary General, thank you very much for your 
incredibly important insights, for your generous time here. You 
have the thanks of Senator Risch, myself, and the committee for 
your service in the hemisphere. Thank you for joining us.
    As the Secretary departs, let me welcome to the committee 
Ms. Deborah Ullmer, who is the regional director for Latin 
America and the Caribbean at the National Democratic Institute, 
and Mr. Ryan Berg, a fellow at the American Enterprise 
Institute. Ms. Ullmer has more than 20 years of experience at 
NDI and previously served as NDI's country director in 
Nicaragua and then Honduras prior to assuming her current role. 
She has extensive experience managing democratic assistance and 
human rights programming across the region. As a fellow at AEI, 
Mr. Berg focuses on U.S. foreign policy, national security, and 
development issues in Latin America and the Caribbean. He 
specializes in transnational organized crime and narcotics 
trafficking. Prior to AEI, he served at the World Bank.
    Welcome to both of you. Thank you for your willingness to 
come share your insights. Your full statements will be included 
in the record. We would ask you to limit your opening remarks 
to around 5 minutes, and this way we can have a conversation. 
Ms. Ullmer, you are recognized.

   STATEMENT OF DEBORAH ULLMER, REGIONAL DIRECTOR FOR LATIN 
   AMERICA AND THE CARIBBEAN, NATIONAL DEMOCRATIC INSTITUTE, 
                         WASHINGTON, DC

    Ms. Ullmer. Thank you, Chairman Menendez and Ranking Member 
Risch. Thank you for this opportunity to address the Senate 
Foreign Relations Committee on the State of Democracy in Latin 
America and the Caribbean. My name is Deborah Ullmer, and I am 
the regional director for Latin America and the Caribbean 
programs at the National Democratic Institute.
    NDI is dedicated to strengthening democratic governance, 
practices, and institutions globally, and has worked in the 
region for nearly 35 years. Like our Republican counterpart, 
the International Republican Institute, NDI works with civic 
groups, government officials, legislators, and political 
parties across the political spectrum at the national and local 
levels on issues such as citizen security, election integrity, 
accountability and transparency, dialogue on political reform, 
and combating disinformation. Since the adoption of the Inter-
American Democratic Charter almost 20 years ago, numerous 
challenges to democratic governments have emerged, including a 
rise in authoritarian leaders and an increased preference for 
populist leaders, challenges to electoral integrity by 
governments that bend the rules of the game in their favor and 
infuse political financing from narco-traffickers, and a 
prevalence of disinformation and illiberal influences.
    Honorable members of the committee, as you know, we could 
spend hours talking about the democratic fragility in Latin 
America, so in the interest of time, I would like to propose 
five areas of bipartisan engagement to help strengthen 
democratic governance in the region.
    First, the Ninth Summit of the Americas provides a great 
opportunity to revitalize the commitment to core democratic 
principles and respect for human rights as consecrated in the 
Democratic Charter. As the summit host, the United States can 
pursue resolutions that underscore the need to collectively 
safeguard human rights and free and fair elections, and promote 
transparency and accountability. Reaffirming these values and 
backing them with actions will be key as illiberal countries, 
such as Russia and China, seek to expand their negative 
economic, political, and security role in the hemisphere.
    Second, in dealing with authoritarian regimes, the United 
States should use all of its available policy tools, including 
the implementation of the groundbreaking Corporate Transparency 
Act passed in 2020, to end corrupt actors' ability to hide 
stolen funds behind anonymous shell companies.
    Third, as is often stated, elections are an essential 
building block, but insufficient condition for sustainable 
democracy. In NDI's experience, corrupt political dynamics are 
precursors to flawed elections and serve as catalysts for 
instability. Support for improved democratic governance in 
between elections is a necessary investment to promote a more 
stable environment.
    Fourth, sustained U.S. democracy in Northern Central 
America is necessary to improve governance, transparency, and 
accountability, all essential elements for development and 
security goals to be advanced. But accountability initiatives 
can only succeed when there is both internal public and 
international support. The United States should provide strong 
backing to both reformers both inside and outside of 
government. I would also like to note that there is a strong 
desire by Central Americans for U.S. foreign policy to consider 
the whole region, including interlinked neighboring countries 
outside of the Northern Triangle.
    Finally, authoritarian regimes are finding more 
sophisticated and illiberal uses of technologies to surveil, 
subvert, and control their citizens. A united effort among 
democracies has made some progress to ensure new technologies 
are used to support freedom and human rights. The United States 
should promote the integrity of the underlying information 
space so authentic communications underpin the legitimacy and 
resilience of democracy around the world.
    Chairman Menendez, Ranking Member Risch, and members of the 
committee, thank you again for this opportunity to testify. I 
look forward to your questions.
    [The prepared statement of Ms. Ullmer follows:]

                  Prepared Statement of Deborah Ullmer

    Chairman Menendez, Ranking Member Risch and members of the 
Committee, thank you for this opportunity to address the Committee in 
this timely hearing on the ``State of Democracy in Latin America and 
the Caribbean.''
    I have more than 20 years of experience managing a range of 
democracy assistance and human rights programs in the Latin America 
region, and have spent half of my career living and working in 
Guatemala, Guyana, Honduras and Nicaragua.
    The organization I represent--the National Democratic Institute 
(NDI)--is dedicated to strengthening democratic governance, practices 
and institutions globally. NDI has worked in Latin America and the 
Caribbean for nearly 35 years, supported by several international 
assistance organizations, including the United States Agency for 
International Development, the National Endowment for Democracy, the 
State Department Bureau of Democracy, Human Rights and Labor, the 
Swedish International Development Assistance Agency, Global Affairs 
Canada, Open Society Foundation, Norwegian Ministry of Foreign Affairs 
and the Howard G. Buffett Foundation. Today, NDI has six national 
offices in Colombia, Ecuador, Guatemala, Haiti, Honduras and Mexico. We 
regularly engage other countries in regional programs on citizen 
security, election integrity, accountability and transparency, dialogue 
on political reform and combating disinformation. Our work with civic 
groups, government officials, legislators and political parties from 
all political persuasions, at national and local levels, exposes us 
daily to diverse perspectives, spanning senior political leaders to 
grassroots activists, and informs the observations that follow.
                  key trends and ways to address them
    On September 11, 2021, the Organization of American States (OAS) 
will celebrate the 20th anniversary of the groundbreaking Inter-
American Democratic Charter. Since the Charter's adoption, there have 
been numerous challenges to democratic governance--including a rise in 
authoritarian and populist leaders--questioned elections, democracy not 
delivering, entrenched corruption and a growing prevalence of 
misinformation and disinformation and illiberal influences. The 
severity of the COVID-19 pandemic compounded long-standing social and 
economic inequalities, and magnified democratic and human rights 
challenges. Post-pandemic economic recovery and unequal vaccine rollout 
efforts may further fuel unrest in the region and open possibilities 
for more populism. Social mobilization in recent history has 
demonstrated that there is a popular outpouring on the need for change, 
but there is no consensus on what their future should look like. 
Additionally, the magnitude of migration movements due to crime, 
corruption, impunity, poverty, climate change and other vulnerabilities 
is creating humanitarian crises in the region.
                         democracy backsliding
    While Latin America continues to experience democratic backsliding, 
``the region remains the most democratic emerging region globally--
scoring below only Western Europe and the United States,'' according to 
the Economist's \1\ most recent survey of the state of democracy. This 
point underscores the continued potential the Western Hemisphere has 
for further advancing freedom, opportunity and prosperity; and 
deepening productive partnerships with the United States.
    Nevertheless, in the last 15 years, the prospects for the 
consolidation of democratic governance have dimmed with the increase of 
authoritarian rule and leaders with populist tendencies. Today, in 
Latin America, three countries are rated by Freedom House's Freedom in 
the World Report 2021 \2\ report as ``Not Free,'' including Cuba, 
Venezuela and Nicaragua, all places where NDI cannot open or has had to 
close its offices. NDI has observed the costs to human rights by 
governments that have used the COVID-19 pandemic to assert greater 
centralized authority through its offices globally.
    At the outset of 2021, the Nicolas Maduro regime took control over 
the last remaining democratic institutions in Venezuela through 
legislative elections rejected by the international community as 
illegitimate. Maduro's authoritarianism is responsible for the 
country's descent into economic collapse. The regime-backed National 
Assembly is considering 33 bills to consolidate Maduro's power by 
further curtailing freedom of expression, restricting international 
cooperation and establishing fewer economic controls that will allow 
regime cronies to operate more freely. The humanitarian crisis has also 
intensified in recent months in response to the destruction of 
essential services, shortage of gasoline, low wages and high cost of 
living all exacerbated by COVID-19. At least 5.5 million Venezuelans 
have fled to neighboring countries in Latin America; the United Nations 
estimates that the Venezuelan refugees' population will swell to 8.1 
million by the end of 2021. The regime repealed a law which required 
gubernatorial and municipal elections to be held on separate dates 
before the end of the year. This would allow the regime to hold a 
super-election in 23 states and 335 municipalities, further 
consolidating power at the local level. There are no easy or quick 
solutions to Venezuela's crisis. Still, in the long-term, the U.S. 
should continue to help Venezuelans create the conditions for a return 
to democracy through free, fair and credible elections.
    Nicaragua represents another ``democracy deficit'' in the region. 
Nicaragua's on-going socio-political crisis began in April 2018 when 
widespread popular protests over social security reforms resulted in 
more than 325 deaths at the hands of the police and paramilitary 
according to numerous human rights reports, and in violent repression 
that continues today. In late 2020, Daniel Ortega's regime approved a 
set of draconian laws that undermine fundamental freedoms and further 
erode the country's rule of law. In October 2020, the OAS adopted a 
resolution \3\ calling on Nicaragua's government to ``fully respect the 
constitutional order, human rights, and fundamental freedoms, and hold 
free and fair elections,'' planned for November 7, 2021. Democratic 
opposition political and civic groups seek to unify and contest the 
elections, representing the best chance for Nicaraguans to regain their 
freedoms and democracy. It is essential that the United States press 
for minimum conditions for legitimate elections in Nicaragua, including 
the full participation of the democratic opposition without 
restrictions, transparency through national and international observers 
and accountability at all levels of the election process.
    While on-going government repression has obstructed democratic 
activists in Cuba, they continue to voice their aspirations for more 
liberties. Over the past several months, civic energy and the volume of 
peaceful protests is increasing around calls for freedoms. There is 
also growing public frustration with the Cuban Government over economic 
liberty and access to basic resources amid a deepening humanitarian 
crisis exacerbated by COVID-19. Recent peaceful protests by Cuban 
artists, journalists and civic activists calling for freedom of speech 
and artistic expression are the largest demonstrations on the island in 
the past 60 years. This initiative underscores Cubans' demand to enjoy 
the same freedom and democratic rights as others throughout the 
hemisphere. In this respect, the Committee's strong bipartisan approval 
of S. Res. 37 in support of the San Isidro Movement shines a key 
spotlight on the human rights situation in Cuba and provides critical 
backing to Cuban activists. As called for by NDI in the past, ``the 
United States and other international actors should continue to press 
the Cuban government to abide by the Universal Declaration for Human 
Rights.'' \4\
  a rise in populism and new and unresolved electoral integrity issues
    An electoral supercycle will occur in the region this year against 
the backdrop of populations ravaged by the COVID-19 pandemic. Economic 
slowdown due to the pandemic and persistent criminal violence has 
negatively affected the quality of life and made it more difficult for 
governments to deliver on promises to improve citizens' lives. As a 
result, ``outsider'' politics is in danger of rising as traditional 
political parties' prestige in delivering on democracy has declined 
throughout the region.
    Nonetheless, there are positive signs for the possibility of 
renewal. Chile, a long-standing democracy, will embark on one of the 
most complex election cycles in its recent history, providing an 
opportunity for the country to redefine its constitution and ``forge a 
new social contract.'' \5\ Protests in 2019 led to a constitutional 
referendum, which passed in October 2020 to replace the Pinochet-era 
constitution. Local and constituent assembly elections are due on April 
10 and 11, and presidential and legislative elections in November. The 
assembly must elect an equal number of women and men, and 17 seats are 
reserved for indigenous peoples of 155 members; two-thirds majority 
must approve the constitution. Given ongoing interest in the region in 
constitutional reforms, Chile could once again serve as a model for the 
region.
    Haiti also is planning a complex election cycle. Earlier this year, 
the Haitian Provisional Electoral Council announced plans to hold a 
constitutional referendum (June 27), first-round elections for 
President, Chamber of Deputies and Senate (September 26) and run-off 
and local government elections (November 21). In Haiti, as in the past, 
the need for overdue and pending elections continue to be flashpoints 
for conflict. Haitian-led dialogue will be key to find political common 
ground and a path forward for elections, including to restore the 
operations of the legislative branch and end presidential rule by 
decree.
    According to the Economist,\6\ political risk is high given 
``trends in a rise in anti-incumbency sentiment and an increasing 
preference for populists.'' Non-traditional political figures may win 
in the presidential elections in Ecuador and Peru (both on April 11). 
Run-off elections in Ecuador will take place between a young former 
cabinet member supported by former populist president Rafael Correa, 
and a conservative banker and two-time former presidential runner-up. 
In Peru, practically none of the candidates have close ties with the 
political parties that nominated them, nor are they traditional 
political figures. Candidates include a former goalkeeper of the 
Peruvian soccer team, an internationally recognized economist and a 
leftist leader from Cusco. NDI is working with the electoral 
authorities in both countries to organize presidential debates to help 
inform voters and promote accountability by the candidates. NDI is also 
supporting initiatives in both countries to increase women's political 
participation, and help address violence against women in politics. 
Whoever is elected in either scenario is unlikely to have significant 
support from a new legislature, and will have to form alliances to 
effectively govern.
    Thus far, elections in 2021 have been contentious. In February, El 
Salvador's legislative elections ushered in an extraordinary margin of 
victory for President Nayib Bukele's Nuevas Ideas party, giving the 
executive branch absolute control over the legislature. According to 
the Organization of American States' election observation mission,\7\ 
the Salvadoran elections took place within a context of ``polarization 
and confrontation between the President and traditional political 
parties and institutional figures in the country, including indications 
of mistrust in the electoral authority.'' A pre-election mission report 
by the Inter-American Institute of Human Rights /Electoral Advisory and 
Promotion Center on the Mexican mid-term legislative elections \8\ 
(June) highlights similar tensions between the executive and the 
electoral authority. According to the report, ``the tensions are on 
display via a debate on the elections budget, public questioning of the 
electoral authority, and the electoral regulation of the Mexican 
President's regular morning press briefings, known as mananeras.''
    Elections will also take place against the backdrop of a 
``continued decline in citizen trust in elections,'' according to the 
2018/2019 USAID-supported Latin American Public Opinion Project 
(LAPOP)/Latinobarometro study.\9\ In recent years, citizens in the 
region have questioned their elections, including presidential 
elections in Bolivia (2019), Ecuador (2017), Guyana (2020), Honduras 
(2017), Nicaragua (2011, 2016) and Venezuela (2017, 2018, 2020).
    In Bolivia, the repercussions from the 2019 and 2020 elections 
continue to be evident in the deeply polarized country. President Luis 
Arce's Government recently jailed former interim president Jeanine Anez 
and two former cabinet members, and issued warrants for other former 
top officials for fomenting a ``coup'' against former President Evo 
Morales following the 2019 elections. The 2019 elections were annulled 
after protests broke out following allegations of election fraud, as 
confirmed by OAS observers. Arce's actions followed an amnesty for 
Morales' supporters accused of human rights violations by Anez. The 
``express'' nature of the arrests undermines the rule of law. Some 
Bolivian analysts see the arrests as retribution for prosecution of 
Morales administration figures during President Anez' tenure. The 
United States should support the United Nations and the OAS in calling 
for the respect of human rights and due process in Bolivia.
    As identified by NDI, several lingering challenges to electoral 
integrity \10\ in the hemisphere are of particular concern, including 
``efforts by political leaders to curtail the independence of electoral 
authorities and adjust established rules of the game in their favor, 
such as using courts to restrict political participation and infusions 
of political financing from narco-traffickers and other illegal 
sources.''
    In Honduras, the November 27 elections will occur in the context of 
incomplete electoral reform that had promised to deal with challenges 
to electoral integrity following contentious 2017 general elections 
that left at least 23 dead in post-electoral violence. On March 14, 
Honduras held primary elections for three of the 14 registered 
political parties. Candidates include officials accused of or indicted 
for corruption, misuse of funds and money-laundering for a drug cartel. 
Additionally, the names of the current and former presidents of the 
country have surfaced in a drug trafficking trial in the United States. 
A national dialogue facilitated by the United Nations in 2018 resulted 
in partial electoral changes. Reforms include new voter identification 
cards, a new electoral authority inclusive of former president Mel 
Zelaya's party and a new electoral court of justice, which lacks 
regulations for settling electoral disputes. National election 
observers are calling for legislative approval of complete reforms amid 
fears of a repeat of the 2017 election. NDI is currently working to 
develop bridges among a network of national election monitors, 
journalists, corruption watchdogs, the private sector and political 
parties with the electoral authority to prevent or mitigate the 
potential for election-related conflict and violence.
    Election observers in cooperation with independent media and 
electoral authorities need to continue to develop techniques to respond 
more effectively to newer challenges to electoral integrity.\11\ The 
challenges include the growing reach of disinformation spread through 
social media to advance political goals, and hacking for political 
espionage and even sabotage of electoral information systems. NDI has 
worked with civil society and electoral authorities in Colombia, 
Ecuador and Mexico to help identify, track and counter disinformation. 
NDI is also working with civic groups in El Salvador and Mexico to 
monitor online electoral and political violence against women 
candidates.
    Support for democratic elections is both a matter of respect for 
sovereign people's political rights and a matter of regional and 
international peace and stability. The United States and the broader 
international community need to promote electoral integrity by building 
national capacities and supporting international election observation, 
which complements national actors' efforts. As called for by NDI, at 
least ``three principles \12\ need to be reinforced in all electoral 
assistance to ensure that elections can resolve the competition for 
office peacefully and accurately reflect the will of the people, 
including inclusiveness, transparency and accountability.''
                           endemic corruption
    The Northern Triangle countries of El Salvador, Guatemala and 
Honduras are combating chronic problems of widespread violence and 
crime, corrupt elites linked to criminal networks and impunity from the 
law by public officials. Together with the lack of economic 
opportunity, deep social inequality and the corrosive impact of 
unresponsive political institutions, these challenges help fuel 
migration and undermine democracy. The COVID-19 pandemic has further 
increased pressure on already fragile democratic institutions and 
underscored the need for transparency, oversight and safeguarding 
fundamental democratic rights.
    In this respect, Northern Triangle countries have seen a surge in 
corruption allegations emerging from government pandemic spending.\13\ 
In Guatemala, social unrest broke out as Congress rushed through the 
2021 national budget. The bill cut health care, education, malnutrition 
aid, the justice sector and the human rights ombudsman. Against the 
pandemic's backdrop and the destruction of hurricanes Iota and Eta, the 
demonstrations that ensued underscored pent-up rejection of government 
attempts to stall naming members of the Supreme and Appeals Courts, 
control the selection of the Constitutional Court and generally roll 
back anti-corruption efforts. Under popular pressure, Congress 
backtracked and did not forward the budget bill to the executive.
    Similarly, Honduran courts dismissed a case against two dozen 
legislators connected to a vast corruption scheme to embezzle public 
funds for political ends, which was uncovered by the former OAS Mission 
to Support the Fight Against Corruption and Impunity in Honduras 
(MACCIH). Last year, President Juan Orlando Hernandez did not renew 
MACCIH's mandate. In El Salvador, the Government has disregarded 
rulings from the Supreme Court over the constitutionality of COVID-19 
quarantine policies and espoused anti-media rhetoric for reporting on 
corruption in government contracts. The legislative elections resulted 
in the President's party achieving a super majority in the Legislative 
Assembly, and ultimately allowing for the control of all selection 
processes for public officials, including judges to the high courts and 
national prosecutors central to the fight against corruption.
    According to a Wilson Center report on U.S. foreign aid in Central 
America from 2014 to 2019,\14\ ``the most important contributing factor 
to limited growth and social progress in the Northern Triangle is 
resistance to anti-corruption and good governance reforms by a small 
but powerful set of political and economic actors with a deep stake in 
maintaining the status quo.'' In all three countries, NDI's reform-
minded partners inside and outside of government have advocated for 
political and electoral reforms and, in some cases like in Guatemala, 
secured political backing for government and legislative action. 
Reform-minded legislators have sought to improve democratic governance, 
advance transparency initiatives and engage citizens on public 
priorities. In Honduras, an inter-party anti-corruption front, created 
to work on legislation to facilitate MACCIH's efforts, focuses on 
promoting legislative openness and shedding more light on the national 
budget and other key legislative actions. Additionally, an 
Anticorruption Coalition,\15\ made up of legislators, judges, youth 
activists and civil society activists are working together, in 
collaboration with some in the private sector, to drive change in 
Honduras.
    Much more needs to be done to support all of these efforts. 
Ultimately, building strong democratic institutions and fighting 
corruption and impunity reduces incentives for migration. Without U.S. 
action in the coming years to bring greater transparency and 
accountability to political institutions, other measures to improve 
governance in El Salvador, Guatemala and Honduras in line with broader 
U.S. policy goals are likely to fall short.
                 growing influence of illiberal actors
    The deepening internal economic and social challenges facing many 
Latin American countries even before the COVID-19 pandemic create 
favorable circumstances for Russia and China to advance their 
interests. Since 2018, China \16\ has surpassed the United States to 
become the region's largest trading partner outside of Mexico. Most 
recently, China has used the ongoing COVID-19 pandemic to burnish its 
image in the region, donating over $200 million of test kits, masks and 
other medical supplies,\17\ and issuing high-profile announcements of 
plans to distribute its Sinovac and Sinopharm vaccines \18\ to almost a 
dozen countries in the region. However, political and civic leaders and 
stakeholders in some countries are beginning to show an appreciation 
for the risks of uncritical Chinese engagement. In Ecuador, corruption 
scandals surrounding Chinese involvement in the Coca Codo Sinclair dam 
and the country's oil reserves have led to convictions of senior 
government officials. In Chile, a Chinese company's takeover of the 
electric utility spurred a bipartisan effort to restrict strategic 
acquisitions by state-owned foreign companies.
    Russia is one of Venezuela's staunchest allies. The Russian 
government provides economic and military support, allowing Moscow a 
useful platform to expand its influence in the region. Cuba is also a 
primary supporter of the Maduro regime. Like China, Cuba is exploiting 
the COVID-19 pandemic to reinvigorate its medical outreach in the 
region. In Nicaragua, the Russian Government provides tanks, weapons 
and troops, and has built a joint counter narcotics training 
center,\19\ attempting to mirror similar United States training support 
in Central America.
    NDI is working to build regional networks with the capacity to 
monitor investments and agreements, and detect irregularities and 
disrupt information manipulation. In Latin America, NDI has identified 
environmental and Indigenous networks that are promoting transparency 
and compliance with national laws. Democracy should deliver in favor of 
social and economic development, security and justice. Programs that 
work with independent journalists, civil society watchdog groups and 
legislatures to raise awareness and shine light on harmful aspects of 
foreign influences in their countries and the region deserve increased 
support.
         opportunities for strengthening democratic governance
    The region's importance to the United States is made clear daily by 
deep economic and cultural ties, and shared challenges ranging from 
climate change to drug-trafficking to migration that require close 
collaboration and cooperation to address. The United States should 
consider the following areas of engagement that can help strengthen 
democratic governance in Latin America and the Caribbean:

  <bullet> The Ninth Summit of the Americas provides an opportunity to 
        revitalize regional commitment to core democratic principles 
        and respect for human rights as consecrated in the Inter-
        American Democratic Charter and unanimously adopted 20 years 
        ago. As the summit host, the United States can pursue 
        resolutions that underscore the need to collectively safeguard 
        human rights and free and fair elections; and promote 
        transparency and accountability. Reaffirming these values and 
        backing with actions will be key as illiberal countries such as 
        Russia and China seek to expand their negative economic, 
        political and security role in the hemisphere.

  <bullet> The United States and its like-minded international and 
        regional allies and partners can help create enabling 
        environments for the resolution of the multiple crises in Latin 
        America. In dealing with authoritarian regimes, the United 
        States should use all of its available policy tools, including 
        implementation of the groundbreaking Corporate Transparency Act 
        passed in 2020, to end corrupt actors' ability to hide stolen 
        funds behind anonymous shell corporations. In addition, U.S. 
        policy in Venezuela and Nicaragua should continue to reinforce 
        consensus agendas among opposition groups to achieve common 
        goals.

  <bullet> As is often stated, elections are an essential building 
        block, but insufficient condition for sustainable democracy. In 
        NDI's experience,\20\ ``corrupt political dynamics are 
        precursors to flawed elections and serve as catalysts for 
        instability.'' Therefore, U.S., international and regional 
        engagement must not start or end on election day. Support for 
        improved democratic governance in between elections is a 
        necessary investment to promote a more stable environment that 
        serves countries' interests in the region, and ultimately U.S. 
        foreign policy and national security goals.

  <bullet> Sustained U.S. democracy assistance in Northern Central 
        America is necessary to improve governance, transparency and 
        accountability, all essential elements for development and 
        security goals to be advanced. Accountability initiatives can 
        only succeed when there is both internal and external support. 
        The United States should provide strong backing to reformers 
        both inside and outside of government. Finally, Central 
        Americans' strong desire is for U.S. foreign policy to consider 
        the whole subregion, including inter-linked neighboring 
        countries outside of the Northern Triangle.

  <bullet> Authoritarian governments are finding more sophisticated and 
        illiberal uses of technologies to surveil, subvert and control 
        their citizens. A united effort among democracies has made some 
        progress to ensure new technologies are used to support freedom 
        and human rights. The United States should promote the 
        integrity of the underlying information space \21\ so authentic 
        communications underpin the legitimacy and resilience of 
        democracies around the world.

    Chairman Menendez, Ranking Member Risch, and members of the 
Committee, thank you again for the opportunity to testify and I look 
forward to your questions.

------------------
Notes

    \1\ https://pages.eiu.com/rs/753-RIQ-438/images/democracy-index-
2020.pdf?mkt
_tok=NzUzLVJJUS00MzgAAAF76pAzPlmhgs0OKuZD6f8EXIRK0yU8sFeEiP
_iiT6pewIXgeVgLuDNyBsMCL2mhtEQtRgwjXViCUUXE6Ur5-
2FtVQsxdeU6IZtDkFxsGvX6ZtE9w
    \2\ https://freedomhouse.org/report/freedom-world/2021/democracy-
under-siege
    \3\ https://usoas.usmission.gov/general-assembly-adopts-resolution-
on-nicaraguas-political-crisis/
    \4\ https://www.ndi.org/publications/full-testimony-ndi-regional-
director-latin-america-jim-swigert-hfac-western-hemisphere
    \5\ https://www.economist.com/the-americas/2021/03/18/a-
constitutional-convention-in-chile-could-forge-a-new-social-contract
    \6\ https://onesite.eiu.com/campaigns/operational-risk-latin-
america-2021/
    \7\ https://www.oas.org/en/media_center/
press_release.asp?sCodigo=E-016/21
    \8\ https://centralelectoral.ine.mx/2021/03/17/presentan-expertos-
informe-de-la-mision-de-acompanamiento-internacional-del-proceso-
electoral-federal-2020-2021/
    \9\ https://www.vanderbilt.edu/lapop/ab2018/
AB2019_Release_DC_Final_10.15.19.pdf
    \10\ https://www.ndi.org/publications/full-testimony-ndi-regional-
director-latin-america-jim-swigert-hfac-western-hemisphere
    \11\ https://www.ndi.org/publications/full-testimony-ndi-regional-
director-latin-america-jim-swigert-hfac-western-hemisphere
    \12\ https://www.ndi.org/publications/full-testimony-ndi-regional-
director-latin-america-jim-swigert-hfac-western-hemisphere
    \13\ https://www.ndi.org/sites/default/files/
NORTHERN%20TRIANGLE%20ONE%20PAGER%20%281%29.pdf
    \14\ https://www.wilsoncenter.org/sites/default/files/media/
uploads/documents/US%20Foreign%20Aid%20Central%20America.pdf
    \15\ https://www.facebook.com/CoalicionAnticorrupcionHN/
    \16\ https://www.reuters.com/article/us-latam-usa-china-insight/in-
latin-america-a-biden-white-house-faces-a-rising-china-idUSKBN28O18R
    \17\ https://www.bu.edu/gdp/files/2021/02/China-LatAm-Econ-
Bulletin_2021.pdf
    \18\ https://www.axios.com/russia-chinese-vaccines-latin-america-
us-mexico-86a9daf5-4d39-421b-958a-40a457513e1c.html
    \19\ https://www.southcom.mil/Portals/7/Documents/
Posture%20Statements/
SOUTHCOM%202021%20Posture%20Statement_FINAL.pdf?ver=qVZdqbYBi_-
rPgtL2LzDkg%3d%3d
    \20\ https://www.ndi.org/publications/full-testimony-ndi-regional-
director-latin-america-jim-swigert-hfac-western-hemisphere
    \21\ https://www.ndi.org/our-stories/infotegrity-ndi-s-approach-
countering-disinformation

    The Chairman. Thank you very much. Mr. Berg.

 STATEMENT OF RYAN C. BERG, PH.D., FELLOW, AMERICAN ENTERPRISE 
                   INSTITUTE, WASHINGTON, DC

    Dr. Berg. Chairman Menendez, Ranking Member Risch, and 
members of the committee, thank you very much for the 
opportunity to testify today on the State of Democracy in Latin 
America and the Caribbean.
    As the world approached the last decade of the Soviet 
Union's existence and the eventual denouement of the Cold War, 
it seemed an inauspicious moment for the fate of democracy in 
the region, with military regimes still running many countries. 
Instead, a remarkable phenomenon transpired in the region from 
the mid-1980s until the signing of the Inter-American 
Democratic Charter in 2001: the longest expansion and the 
deepest consolidation of democracy in the region's history. The 
Charter enshrined the region's commitment to democracy and 
attempted to impel still unconsolidated democratic institutions 
toward further consolidation. Alas, these high-minded 
aspirations proved elusive in practice.
    The march toward a hemisphere safe for democracy was uneven 
and did not endure. Cuba resisted all change and continued as a 
communist dictatorship. Venezuela and Nicaragua succumbed to 
the ravages of authoritarianism. Argentina, Bolivia, Ecuador, 
and, more recently, Brazil and Mexico were taken by the siren 
song of populism. Central American states failed to build on 
early gains and eventually suffered deep democratic 
backsliding. And organized crime, many times aided and abetted 
by the highest echelons of political power, spread its 
tentacles of anti-democratic corruption throughout the region.
    Two of the most notable trends of the past decade are the 
rise of hybrid regimes and authoritarian spoilers, both 
regional and extra-regional alike. Regionally, several 
countries, despite their democratic facade, are actually 
autocratic or authoritarian in nature. Scholars have described 
this hybrid regime type where democratic institutions exist in 
form, but not in substance, and where elections occur regularly 
and are largely stage-managed, as ``competitive 
authoritarianism.'' In addition to hybrid regimes in the 
region, extra-regional authoritarian actors have also stymied 
democratization by supporting backsliding and authoritarian 
governments, and insulating them from democratic pressures 
through what we call authoritarian export and authoritarian 
learning.
    Like a family recipe, extra-regional authoritarian powers 
have bequeathed to several Latin American countries, namely 
Venezuela and Nicaragua, their best advice in regime adaptation 
and survival. The Inter-American Democratic Charter and 
traditional foreign policy tools of democracies have 
unfortunately proven no match for the designs of these 
authoritarians.
    In sum, the state of democracy in today's Latin America and 
the Caribbean may be limping instead of sprinting. Democracy 
may not shine as brightly as it once did, but it carries on, in 
desperate need of renewal and strengthening. Meanwhile, great 
power rivals are cheering democracy stumbles, actively working 
to thwart its success, and promoting alternative systems of 
governance antithetical to a hemisphere safe for democracy.
    What are some of the lessons learned over the past two 
decades of the Inter-American Democratic Charter? First, the 
Charter has often failed to inspire a vision for the Hemisphere 
of integrated and increasingly prosperous democracies. Rather, 
at times it has avoided slipping into irrelevance only as a 
coercive tool in the attempt to bring wayward countries back 
into line. Second, elections by themselves are not enough. As 
others have noted here today, this year, Latin America 
witnesses an election super cycle with nine countries holding 
elections. While the Charter helped the region maintain an 
admirable focus on elections, this was insufficient. A 
prominent Nicaraguan struggling for freedom in his country 
recently remarked to me, ``Fraud is not committed on the 
election day, but rather months in advance with manipulations 
of the tabulation system, voting boards, and national electoral 
councils.''
    Third, the Charter is subject to and suffers from 
unfavorable regional dynamics, and this has vitiated the 
Charter's ability to serve as a policing mechanism among a 
community of co-equal democracies. And fourth, leadership of 
the OAS matters immensely. Under past secretaries general, the 
Charter suffered notable defeats. Secretary General Luis 
Almagro deserves our high praise for elevating the Charter in 
the work of the Secretariat and reviving the Charter's 
relevance by placing it back at the center of the OSS' mission.
    Mr. Chairman, with the brief remaining time, I would like 
to go through a few quick policy recommendations for the United 
States to forge a hemisphere safe for democracy and to defeat 
great power rivals pushing alternative antithetical systems of 
government.
    First, dismantle transnational organized crime networks. No 
amount of rhetorical fondness for the Inter-American Democratic 
Charter can overcome the deeply-embedded networks that permeate 
the Western Hemisphere, emanating most startlingly from the 
criminal regimes in Venezuela, Nicaragua, and Cuba. Second, 
beware of the autocrats' playbook. Consolidated dictatorships 
are extremely difficult to dismantle, but, fortunately, the 
tools afforded to us by the Inter-American Democratic Charter 
can help the U.S. sound a powerful tocsin against Latin 
American regimes engaged in democratic backsliding before it is 
too late.
    Third, bring ideology back to the fore. Quite simply, the 
only way the U.S. will compete and outpace China's and, to a 
lesser extent, Russia's burgeoning influence in the region is 
with a more attractive vision for our shared hemisphere. We 
should not shy away from the fact that this is a competition 
over ideology as much as it is about influence. Shared 
principles are critical to forging robust coalitions, and, for 
the region, these shared principles and aspirations are 
anchored unequivocally in the Charter.
    Fourth, leverage the International Development Finance 
Corporation and the Inter-American Development Bank. 
Recognizing the importance of the region, the U.S. Congress 
ought to consider a requirement that 35 percent of DFC lending 
be pegged to the Americas, as the bipartisan Advancing 
Competitiveness Transparency and Security in the America Act, 
ACTSA, does. If paired with a much-needed capital increase at 
the IDB, and with matched private financing, this could yield 
nearly a quarter of a trillion dollars over a 5-year period, 
which is some serious investment power to transform the region 
and limit China's One Belt One Road Initiative and its 
debilitating debt trap financing practices.
    And lastly, Mr. Chairman, I think we need to reconsider the 
relationship between trade agreements and democracy efforts. 
The U.S. should reconsider its free trade agreements with 
countries considered ``not free'' by Freedom House. In the 
region, this means reconsidering Nicaragua's continued 
participation in CAFTA-DR. Quite simply, the U.S. has no 
interest in permitting free trade arrangements to bolster the 
security apparatuses of authoritarian regimes accused of 
committing crimes against humanity.
    Thank you, Mr. Chairman, and I look forward to answering 
the committee's questions.
    [The prepared statement of Dr. Berg follows:]

               Prepared Statement of Ryan C. Berg, Ph.D.

    Chairman Menendez, Ranking Member Risch, and members of the 
committee: thank you for the opportunity to testify on the state of 
democracy in Latin America and the Caribbean.
    As the world approached the last decade of the Soviet Union's 
existence and the eventual denouement of the Cold War, it seemed an 
inauspicious moment for the fate of democracy in Latin America and the 
Caribbean. The moment felt unconducive for democratic flourishing, with 
military regimes still running many countries and economic and debt 
crises sending shock waves through societies.
    Instead, a remarkable phenomenon transpired in the region from the 
mid-1980s until the signing of the Inter-American Democratic Charter in 
2001: the longest expansion and the deepest consolidation of democracy 
in the region's history.\1\ Aided by shifts in global power dynamics, 
the receding of the revolutionary left, the rapid expansion of market 
economies, and the availability of greater capital lending, democracy 
enjoyed a boom phase in Latin America and the Caribbean.\2\ This 
progress was reflected in earlier statements, such as the 1985 Protocol 
of Cartagena de Indias, which spoke of representative democracy as an 
indispensable condition for the stability, peace, and development of 
Latin America and the Caribbean.
    While the process of democratization in Latin America and the 
Caribbean was certainly not linear, by 1994, the number of countries 
with ``free'' designations according to Freedom House had nearly 
doubled. The number of ``not free'' countries in the region stood at 
just one: Cuba.\3\ In short, democracy had become the rule and not the 
exception in Latin America and the Caribbean.
    This age for democratic growth in the region culminated in the 
signing of the Inter-American Democratic Charter on that fateful day of 
September 11, 2001, in Lima, Peru. The charter enshrined the region's 
commitment to democracy and attempted to impel the region's still 
unconsolidated democratic institutions toward further consolidation. 
Alas, the charter's high-minded aspirations proved elusive in practice.
    The march toward a hemisphere of democracies did not endure. Cuba 
resisted all change and continued as a Communist dictatorship; 
Venezuela and Nicaragua succumbed to the ravishes of authoritarianism; 
Argentina, Bolivia, Ecuador, and more recently, Brazil and Mexico were 
taken by the siren song of populism; Central American states failed to 
build on early gains, missed critical moments, and eventually suffered 
democratic backsliding; and organized crime--many times aided and 
abetted by the highest echelons of political power--spread its 
tentacles of antidemocratic corruption throughout the region.
    Determined campaigns to extirpate region-wide systemic corruption 
revealed a previously unfathomable extent of state rot, eviscerating 
established political parties and giving rise to outsider and fringe 
candidates straining the region's fragile democratic institutions. This 
concatenation of events has played out in the region's smallest 
democracies--Central America--and the region's largest democracies--
Brazil and Mexico--alike.
    In sum, the state of democracy in today's Latin America and the 
Caribbean may be limping instead of sprinting. Democracy may not shine 
as brightly as it once did, but it carries on in many parts of the 
region, in desperate need of renewal and strengthening. Meanwhile, 
great power rivals are cheering democracy's stumbles, actively working 
to thwart its success, and promoting alternative systems of governance 
antithetical to a hemisphere safe for democracy.
        the importance of the inter-american democratic charter
    The Inter-American Democratic Charter was a historic agreement that 
declared the ``peoples of the Americas have a right to democracy and 
their governments have an obligation to promote and defend it.'' \4\ It 
is binding on all signatories, committing them to promote and defend 
democracy as the only acceptable form of government in the Western 
Hemisphere. The charter relies on the organs of the Inter-American 
System to monitor democratic practices and enforce democratic 
principles in the region, documenting and potentially punishing 
violations.
    The charter's immense value should not be underestimated. It 
continues as a major reference point that serves to promote a culture 
of democracy in Latin America and the Caribbean. The charter anchors 
democratic practices by furnishing a common standard by which to judge 
countries that have strayed and establishing a mechanism for punishing 
delinquent countries, including potential expulsion from the 
Organization of American States (OAS) and the Inter-American System. 
The charter also establishes a framework for the OAS's routine 
electoral observation missions in member states.
    Over the past two decades, however, the charter has often failed to 
inspire a vision for a hemisphere of integrated and increasingly 
prosperous democracies; rather, at times it has avoided slipping into 
irrelevance only as a coercive tool in the occasional attempt to bring 
wayward countries back into line--Venezuela in 2002, Honduras in 2009, 
and Venezuela again in 2016.
         the rise of hybrid regimes and authoritarian spoilers
    Two of the most notable trends of the past decade in Latin 
America's democratic history are the rise of hybrid regimes and 
authoritarian spoilers--regional and extra-regional alike. Regionally, 
several countries, despite their democratic facade, are actually 
autocratic or authoritarian in nature. Scholars have described this 
hybrid regime type, where democratic institutions exist in form but not 
in substance and where elections occur regularly but are largely stage-
managed, as ``competitive authoritarianism.'' \5\
    Incumbents' use (and abuse) of the state often places them at a 
significant advantage vis-a-vis the opposition. In competitive 
authoritarian regimes, ``democratic procedures are sufficiently 
meaningful for opposition groups to take them seriously as arenas 
through which to contest for power.'' \6\ Yet, these regimes often 
abrogate basic principles of democracy, such as free and fair 
elections, the protection of basic civil liberties (e.g., freedom of 
the press and association), and an even electoral playing field (e.g., 
lack of independent media).
    In addition to hybrid regimes in the region, extra-regional 
authoritarian actors have also stymied Latin America's democratization 
by supporting regional backsliders and authoritarians and insulating 
them from democratic pressures. For instance, in a geopolitical 
environment of intensifying rivalry, where Latin America has become an 
emerging flash point, extra-hemispheric actors and U.S. strategic 
competitors have opportunistically leveraged the bedlam in Venezuela, 
the repressive crackdown in Nicaragua, past authoritarian slides in 
Ecuador and Bolivia, and the debt-fueled descent of Argentina to enter 
the Western Hemisphere, sow chaos, set debt traps, destabilize the 
region, and even augment their power projection capabilities.
    Authoritarian states have a deep interest in constructing a world 
safe for their ilk. In the aforementioned countries, China, Russia, 
Cuba, and others have moved to stymie democracy, shore up allies, and 
pass on knowledge in regime survival and election rigging. In many 
cases, these relationships have transformed from transactional bonds to 
blossoming strategic partnerships and even outright dependencies.
    Several countries in the region have become prime examples of the 
phenomenon known as ``authoritarian export'' and ``authoritarian 
learning,'' whereby authoritarian leaders share best practices in 
regime survival and ``adopt survival strategies based upon their prior 
successes and failures of other governments.'' \7\ Like a family 
recipe, extra-regional authoritarian powers have bequeathed to several 
Latin American countries--namely, Venezuela and Nicaragua--their best 
advice in regime adaptation and survival.
    The Inter-American Democratic Charter and the traditional foreign 
policy tools of democracies have proved no match for the designs of 
authoritarians.
   the ``bolivarian joint criminal enterprise'' is working to thwart 
                               democracy
    Venezuela's rapid descent into authoritarianism was fortified by 
the construction of a multibillion-dollar network of corruption weaving 
threads throughout the region with sympathetic political leaders, 
economic elites, and criminal organizations. The sinews of resilience 
for the Hugo Chavez and now Nicolas Maduro regimes have been a 
sprawling network of corruption undertaken with the patina of economic 
development and regional solidarity. One analyst dubs this network the 
``Bolivarian Joint Criminal Enterprise,'' which holds a vice-like grip 
on the region's democratic progress.\8\
    Although in many instances, the Venezuelan regime spread these 
tentacles years ago, they continue to hinder the region's democratic 
performance. In El Salvador, for example, President Nayib Bukele has 
been accused of ``enduring ties to transnational criminal structures'' 
emanating from the Venezuelan criminal empire and encompassing some of 
the most worrying criminal actors in the region. Literally billions of 
dollars have disappeared from Alba Petroleos, operating as a Salvadoran 
subsidiary of Venezuela's state-run oil monopoly, Petroleos de 
Venezuela, S.A.\9\ Much of this money has made its way into political 
campaigns, providing illicit financing and melding criminal activity 
with democratic politics in El Salvador.
                lessons learned over nearly two decades
    Elections by Themselves Are Not Enough. While the Charter helped 
the region maintain an admirable focus on one of the most important 
components of democracy--elections--they alone are insufficient to 
protect and consolidate democracy. The rise of ``competitive 
authoritarian'' regimes means that democracy promotion efforts in Latin 
America and the Caribbean must focus on the often highly technical 
aspects of democracy, such as the composition of national electoral 
commissions, the development and finance of political parties, and the 
media landscape in relation to electoral competition.
    The Charter Is Subject to and Suffers from Unfavorable Regional 
Dynamics. The charter often fails to bare its teeth because it is 
dependent on not only regional dynamics but also the cooperation of the 
country in question. This has vitiated the Inter-American Democratic 
Charter's ability to serve as a policing mechanism among a community of 
coequal democracies. Further, regional dynamics have prevented the 
threat of expulsion from the OAS as the ultimate cudgel in earning 
concessions for freer and fairer elections, most notably in Nicaragua.
    OAS Leadership Matters Greatly. The charter's provisions are only 
as good as the OAS's leadership. Under the leadership of Secretary 
General Jose Miguel Insulza, the charter suffered some notable defeats, 
such as the 2009 vote to readmit Cuba back into the OAS in 
contravention of the charter's provisions. (Cuba ultimately declined to 
rejoin to OAS, but the damage had already been done to the binding 
spirit of the charter as a serious push for democracy.) Secretary 
General Luis Almagro deserves praise for elevating the Inter-American 
Democratic Charter in the work of the secretariat and reviving the 
charter's relevance by placing it back at the center of the OAS's 
mission.
                         policy recommendations
    To forge a hemisphere safe for democracy and defeat great-power 
rivals pushing alternative, antithetical systems of government, the 
U.S. should pursue the following policies.
    Dismantle Transnational Organized Crime Networks. The U.S. must 
continue its efforts to dismantle transnational organized crime 
networks--both non-state groups and state-sponsored groups alike--that 
limit the ability to promote and consolidate democracy in Latin America 
and the Caribbean. After all, no amount of rhetorical fondness for the 
Inter-American Democratic Charter can overcome the deeply embedded 
networks that permeate the Western Hemisphere, emanating most 
startlingly from the criminal regimes in Venezuela, Nicaragua, and 
Cuba. These links are global in nature, however, coursing through the 
entire hemisphere, undermining democracy, and vitiating the rule of 
law.
    The U.S. must continue to engage in the work of dismantling 
transnational organized crime with greater urgency than ever before--
technical training and standards enforcement, anti-money laundering 
work, and bilateral security assistance, to name but a few policies. In 
other cases, the U.S. should aggressively use the Global Magnitsky Act 
to sanction corrupt officials involved in human rights abuses and 
freeze their assets. Recent legislation, the so-called ``Engel List,'' 
provides another avenue to deny visas and name and shame corrupt 
individuals involved in transnational criminal networks.\10\
    Beware the ``Autocrat's Playbook.'' As the struggle for democracy 
in Venezuela and Nicaragua demonstrates, it is nearly impossible to 
dismantle a dictatorship once consolidated. The tools provided by the 
Inter-American Democratic Charter can help the U.S. sound a powerful 
tocsin against Latin American regimes engaged in democratic 
backsliding--which suffer significant ruptures in their democratic 
order--before it is too late. Indeed, while the charter may shine most 
brightly on Venezuela, Nicaragua, and Cuba--precisely where its 
principles are most lacking--the spotlight should highlight countries 
beyond the so-called Troika of Tyranny as well.
    There is a well-worn playbook on the road to democratic ruin that 
includes manipulating the media landscape, corrupting judicial 
independence and packing the judiciary, reengineering elections, 
suffocating civil society, bringing the private sector to heel, 
spawning pro-government organizations, and even organizing ersatz 
political parties. In this playbook, the coup de grace is a systematic 
destruction of political opposition and the empowerment of pro-
government paramilitary groups. The charter can help Latin America and 
the Caribbean construct and anchor the antithesis of the autocrat's 
playbook--the ``democrat's playbook.'' \11\
    Prepare Now for the Post-Pandemic Environment. Many of the long-
term challenges that predate the pandemic in Latin America and the 
Caribbean--systemic corruption, poor institutional design, weak 
governance, and the lack of democratic principles and practices--have 
again come to the fore during the pandemic and will continue long after 
the pandemic has subsided. However, the great-power rivalry now 
encompassing Latin America and the Caribbean makes addressing these 
challenges all the more urgent.
    The case for greater U.S. engagement with Latin America and the 
Caribbean as it exits the pandemic and looks to its shared neighborhood 
has never been stronger. For too long, the region has suffered from the 
same American shortsightedness: lack of time, attention, and resources. 
There has never been a better time to show Latin America and the 
Caribbean that the U.S. takes the idea of a shared neighborhood of 
prospering democracies seriously.
    Bring Ideology back to the Fore. Quite simply, the only way the 
U.S. will compete and outpace China's burgeoning influence in Latin 
America and the Caribbean is with a more attractive vision for our 
shared hemisphere. We should not shy away from the fact that this is a 
competition over ideology as much as it is about military influence. 
The U.S. must afford countries not directly threatened by China's 
military a strong reason to care by emphasizing the shared political 
values with its neighbors and partners in the region.
    In a recent article for Foreign Affairs, two China scholars reflect 
on how the Cold War ``was a struggle to ensure that the world reflected 
the norms and values of a democratic coalition rather than its 
authoritarian rivals. For similar reasons, shared principles are 
critical to forging robust international coalitions today.'' \12\ For 
the region, these shared principles and aspirations are anchored 
unequivocally in the Inter-American Democratic Charter. There is the 
potential for the charter to fulfill the promise it has thus far failed 
to fulfill--that is, to serve as a positive and inspirational document 
committing the hemisphere to become a bastion of democracy.
    Leverage the International Development Finance Corporation (DFC) 
and the Inter-American Development Bank (IDB). The U.S. should take 
advantage of both the DFC and the IDB to push back on China's (and to a 
lesser extent, Russia's) steady gains in Latin America and the 
Caribbean over the past decade. Recognizing the importance of Latin 
America and the Caribbean, the U.S. Congress ought to consider a 
requirement that 35 percent of DFC lending be pegged to the Americas, 
as the bipartisan Advancing Competitiveness, Transparency, and Security 
in the Americas Act (ACTSA) does. The U.S. should pair this requirement 
with a push for a much-needed capital increase at the IDB.\13\ Under 
the right set of incentives and lending requirements, the DFC, the IDB, 
and matching private financing could bring nearly a quarter of a 
trillion dollars over a 5-year period to the table-some serious 
development assistance and investment firepower in the region. Such a 
combination would reduce the strategic vacuum for China to expand its 
One Belt, One Road Initiative and engage in debilitating debt-trap 
financing, with all its attendant consequences for democracy. However, 
executing this strategy properly will require those who harbor 
misgivings about the election for the IDB presidency to be forward-
looking and see the IDB president as the potential ally that he is.
    Prioritize Governance. Governance deficits abounded throughout 
Latin America and the Caribbean prior to the pandemic. The COVID-19 
pandemic has laid bare governance deficits in an even more apparent 
way. In part, poor governance explains the shockingly low levels of 
satisfaction with democracy in the region and provides critical 
openings for criminal groups and U.S. strategic rivals. Of course, the 
U.S. should also prioritize economic development and security 
assistance, but often governance has been an underemphasized facet of 
U.S. assistance to the region.\14\
    The rule of law and the ability of governments to provide the most 
basic of services should be fundamental goals of U.S. assistance to 
most countries in Latin America and the Caribbean. In this, the U.S. 
must partner with civil society and local actors crucial to these 
efforts. The U.S. can even provide technical support where local 
political actors are open to receiving it.
    Reconsider the Relationship Between Trade Agreements and Democracy 
Promotion. The U.S. should reconsider its free trade arrangements with 
countries considered ``not free'' by Freedom House's annual Freedom in 
the World Index. In the Western Hemisphere, this means reconsidering 
Nicaragua's continued participation in the Dominican Republic-Central 
America FTA, especially given the prospects that free trade agreements 
may have contributed to grave human rights abuses at the hands of a 
security apparatus accused by the Interdisciplinary Group of Experts, a 
working group of the OAS, of ``crimes against humanity.'' \15\ Trade 
agreements provide significant leverage to earn concessions from 
authoritarian leaders and backsliding democracies alike. Quite simply, 
the U.S. has no interest in permitting its free trade agreements to 
bolster the security apparatuses of authoritarian states and 
backsliding democracies contributing to gross human rights violations.

----------------
Notes

    \1\ Karen L. Remmer, ``The Process of Democratization in Latin 
America,'' Studies in Comparative International Development 27 
(December 1992): 3-24, https://doi.org/10.1007/BF02687137.
    \2\ Samuel P. Huntington, The Third Wave: Democratization in the 
Late Twentieth Century (Norman, OK: University of Oklahoma Press, 
2001).
    \3\ Arch Puddington, ``Latin America Shows That Democratization Is 
Possible Anywhere,'' Freedom House, August 3, 2015, https://
freedomhouse.org/article/latin-america-shows-democratization-possible-
anywhere.
    \4\ Inter-American Democracy Charter, Organization of American 
States, September 11, 2001, http://www.oas.org/OASpage/eng/Documents/
Democractic_Charter.htm.
    \5\ Steven Levitsky and Lucan A. Way, ``Elections Without 
Democracy: The Rise of Competitive Authoritarianism,'' Journal of 
Democracy 13, no. 2 (April 2002): 51-65, https://muse.jhu.edu/article/
17196.
    \6\ Steven Levitsky and Lucan A. Way, Competitive Authoritarianism: 
Hybrid Regimes After the Cold War (Cambridge, UK: Cambridge University 
Press, 2010), 7.
    \7\ Stephen G. F. Hall and Thomas Ambrosio, ``Authoritarian 
Learning: A Conceptual Overview,'' East European Politics 33, no. 2 
(2017): 143, https://doi.org/10.1080/21599165.2017.1307826.
    \8\ Douglas Farah and Caitlyn Yates, Maduro's Last Stand: 
Venezuela's Survival Through the Bolivarian Joint Criminal Enterprise, 
IBI Consultants, May 2019, https://www.ibiconsultants.net/_pdf/maduros-
last-stand.pdf.
    \9\ Douglas Farah, How to Make a Billion Dollars Disappear: Jose 
Luis Merino, PDVSA, Alba Petroleos and the Bukele Administration's 
Enduring Ties to Transnational Criminal Structures, IBI Consultants, 
September 2020, https://www.ibiconsultants.net/_pdf/nb-and-alba-
petroleos-final.pdf.
    \10\ Ryan C. Berg, ``Sanctions on Corrupt Players Can Build 
Stability in Central America,'' Hill, January 6, 2021, https://
thehill.com/opinion/international/532852-sanctions-on-corrupt-players-
can-build-stability-in-central-america.
    \11\ Christopher Sabatini and Ryan C. Berg, ``Autocrats Have a 
Playbook--Now Democrats Need One Too,'' Foreign Policy, February 10, 
2021, https://foreignpolicy.com/2021/02/10/autocrats-have-a-playbook-
now-democrats-need-one-too/.
    \12\ Hal Brands and Zach Cooper, ``U.S.-Chinese Rivalry Is a 
Competition over Values,'' Foreign Affairs, March 16, 2021, https://
www.foreignaffairs.com/articles/united-states/2021-03-16/us-china-
rivalry-battle-over-values.
    \13\ Daniel F. Runde, Kristen Cordell, Romina Bandura, and Claudia 
Fernandez, ``The Right Time for a Capital Increase for the Inter-
American Development Bank (IDB)?,'' Center for Strategic and 
International Studies, February 2021, https://www.csis.org/analysis/
right-time-capital-increase-inter-american-development-bank-idb.
    \14\ Dan Restrepo, ``Central Americans Are Fleeing Bad 
Governments,'' Foreign Affairs, March 5, 2021, https://
www.foreignaffairs.com/articles/central-america-caribbean/2021-03-05/
central-americans-are-fleeing-bad-governments.
    \15\ Grupo Interdisciplinario de Expertos Independientes, ``Informe 
Sobre los Hechos de Violencia Ocurridos entre el 18 de Abril y el 30 de 
Mayo 2018,'' December 2018, http://gieinicaragua.org/giei-content/
uploads/2018/12/GIEI_INFORME_DIGITAL.pdf; and Ryan C. Berg, Restoring 
Democracy in Nicaragua: Escalating Efforts Against the Ortega-Murillo 
Regime, American Enterprise Institute, July 28, 2020, https://
www.aei.org/research-products/report/restoring-democracy-in-nicaragua-
escalating-efforts-against-the-ortega-murillo-regime/.

    The Chairman. Thank you both for your testimony. I 
appreciate it. There are some good insights there. I certainly 
am a big supporter of--capitalizing up the IDB, I think, can be 
a tremendous instrument in the hemisphere to both promote our 
collective interest and, of course, as a counterweight to 
China.
    I have one generic question and then I have some country-
specific questions. Ms. Ullmer--well, for both of you actually. 
So we are going to host a summit of the Americas. Who gets 
invited? I think it is important because, you know, who is 
seated at the table in the first instance? There those who 
might argue it is a summit of the Americas, so everybody in the 
Americas gets invited. By the same token, there are those who 
would argue, well, the Inter-American Democratic Charter, those 
who abide by it get invited, and those who do not understand 
that they need to achieve that goal. There are other conditions 
others may suggest. What are both of your views?
    Ms. Ullmer. Thank you for the question. I would say it is 
important as the host of the summit that independent civil 
society organizations form part of this invitation. Too many 
times, organizations, such as the Cuban independent civil 
society, are clamoring to participate in multilateral forums. 
It is important that we show our support to these groups and 
that they are part of the agenda, as they have been in the past 
in Panama, and Peru, and other places. So in terms of who gets 
invited, I would say it is important to include independent 
civil society because they serve as a check on their own 
governments.
    The Chairman. Mm-hmm.
    Dr. Berg. Thank you for the question, Senator. I think it 
is extremely important, as Ms. Ullmer mentioned in her oral 
statement, that we go big when it comes to playing host of the 
summit. As the host, I think we have the ability to play a role 
in who gets invited and as to the--to the invite list. However, 
I think it gets pretty hairy when it comes to deciding who it 
is that ought to be on that invite list because I understand 
that even members of this committee would probably disagree as 
to who is and who is not abiding by the Charter. And so if the 
question is do we have the ability to play a role as to the 
invite list, I think the answer is unequivocally yes. 
Obviously, the devil is in the details there on who exactly is 
going to decide and by what metrics they are going to decide 
the invite list.
    The Chairman. Well, it seems to me that what would be 
universal recognitions of significant violation of human 
rights, dictatorships, and, you know, a series of other 
elements that certainly do not live up to the Democratic 
Charter, because if everybody can come to the meeting and at 
the end of the day not live up to the obligations, well, you 
know, there is not any association, any membership, any 
organization. You cannot be part of NATO unless you meet 
certain standards, right? So I would hope we think about that 
as well. I appreciate the civil society elements.
    Let me turn to some country-specific questions. This 
morning, the Foreign Relations Committee voted overwhelmingly 
to support my resolution expressing the Senate's support for 
Cuba's San Isidro Movement. Since November, a renewed wave of 
civic activists, artists, and others in Cuba have been calling 
for greater freedom of expression on the island. Not 
surprisingly, the Cuban regime has responded, as all 
authoritarian governments do, with harassment, persecution, 
physical attacks, and, in one case, the temporary suspension of 
internet service in the country to slow news of the protests. 
As the Cuban people demand a future of Padre Evita, it is long 
past time for the regime to make way for democratic aspirations 
of its own citizens. Ms. Ullmer, given your extensive 
experience working with democracy activists across the region, 
can you talk to us about the significance of the San Isidro 
Movement, its unprecedented advances, the regime's ongoing 
response, and how can the international community best support 
Cuban artists and activists clamoring for change?
    Ms. Ullmer. Thank you. As you said, recent peaceful 
protests by Cuban artists, journalists, civic activists, 
calling for freedom of speech and cultural rights are the 
largest demonstrations on the island in the past 60 years. In 
this respect, the committee's strong bipartisan approval of the 
resolution in support of the San Isidro Movement shines a key 
spotlight on the human rights situation in Cuba, and provides 
critical backing to Cuban activists. The first great 
advancement of the San Isidro Movement was to prevent the 
implementation of Decree 349, which would severely limit 
artistic freedoms.
    The San Isidro Movement has awakened the desire by Cubans 
to enjoy the same freedoms and democratic rights as others 
throughout the hemisphere, including those who traditionally 
are not involved in promoting human rights and freedoms, 
including religious organizations and even some artists that 
have been perceived as being closer to the regime. One way to 
support Cuban activists, as I just said, about the Summit of 
the Americas is to invite them to the Summit of the Americas 
and other multilateral forums, and call on the Cuban regime to 
ensure that they can participate without fear of reprisal. 
Thank you.
    The Chairman. Thank you. Let me ask one final question. In 
November, Nicaragua will hold presidential elections. In recent 
months, the Ortega Government and its accomplices have passed a 
series of laws aimed at criminalizing political activity in the 
country and undermining prospects for a free, fair, and 
transparent election. Furthermore, continuous attacks against 
independent media outlets in the country and a wave of human 
rights abuses in the interior of the country show a regime 
intent on intimidating its citizens as an effort to 
predetermine the outcome in November. Tomorrow, I will lead new 
bipartisan legislation, the RENACER Act, in the Senate that 
will send a clear signal about the Ortega regime's corrupt and 
human rights violations and define a coordinated international 
strategy for advancing democratic elections in Nicaragua. Can 
you both speak to us about the closing political space in 
Nicaragua and what type of steps the international community 
needs to take to avoid the rise of a third dictatorship in the 
hemisphere?
    Ms. Ullmer. Thank you. The Nicaragua legislation I am sure 
will be welcomed by many Nicaraguans. While Nicaragua's ongoing 
social and political crises started in April 2018, the closing 
of political space did not begin in 2018. It began in 2008 with 
the municipal elections that were documented as the most 
fraudulent elections in Nicaragua's history. So this has been 
going on for more than a decade. 2018, however, marked a dark 
turning point in Nicaragua's history. It resulted in more than 
325 deaths at the hands of the police and paramilitary, 
according to numerous human rights reports.
    The violent repression continues today. Daniel Ortega 
maintains his power through force, blackmail, and terror. This 
chain of repression begins in communities with the military, 
with the police, and paramilitary forces who monitor, harass, 
and persecute citizens as they identify opponents. It continues 
with a corrupt judiciary that fabricates evidence against 
political opponents, and imprisons them without due process. 
These actors have illegally enriched themselves with the 
protection of the regime. That is why it is important for the 
United States to trace their assets hidden in shell 
corporations and apply corresponding sanctions.
    The United States should also support reformist social and 
political leaders who are genuinely committed to the recovery 
of democracy in their country, and who seek to unify and 
contest the elections which represent the best chance for 
Nicaraguans to regain their freedoms. It is essential that the 
United States press for minimum conditions for legitimate 
elections in Nicaragua, including, one, and the full 
participation of the democratic opposition without 
restrictions; two, transparency through national and 
international observers; and, three, accountability at all 
levels of the election process. Thank you.
    The Chairman. Thank you.
    Dr. Berg. Mr. Chairman?
    The Chairman. Mr. Berg, do you have some comments?
    Dr. Berg. Yes, Mr. Chairman. Thanks so much for the 
question on Nicaragua, and thank you for your leadership on 
this issue. I am extremely concerned about what I call the 
authoritarian architecture, which the Ortega regime is 
currently constructing. In the last several months, starting in 
about September or October of last year, we saw a cascade of 
legislation going through the National Assembly.
    First it was the Foreign Agents Law meant to basically shut 
down civil society. I mentioned in my opening statement the 
concept of authoritarian export. That law looked very similar, 
almost a carbon copy, to the 2012 bill that the Russians passed 
under Vladimir Putin to shut down civil society in that 
country. There was a cyber law as well, which establishes a new 
standard of ``offense'' as a way of silencing and chilling 
speech in the country. And then there was also the opposition--
the law against the democratic opposition in the country, which 
basically makes it illegal for members of Nicaraguan society, 
who have called for a sanctions and pressure on the Ortega 
Government, to run for and hold office in Nicaragua. All of 
these were paired with an increase in penalties as well to 
include life sentences, and so the amount of pressure that the 
Ortega regime is wielding against the democratic opposition in 
the country is very immense.
    I think, as I mentioned in my opening statement, the U.S. 
needs to reconsider CAFTA-DR, which I think is the ultimate 
cudgel in any sort of push to get free and fair elections 
there. I think as well we need to consider sanctioning the 
Nicaraguan military. We sanctioned the national police last 
year, but the military was also involved in some of the same 
human rights abuses for which the national police were 
sanctioned as well. There is a very lucrative investment fund 
that goes by the acronym IPSM--in which many of the high-level 
officials in the Nicaraguan military are involved. I know that 
some of the assets are exposed to the New York Stock Exchange 
and other elements of the United States financial system. We 
should go after those. If they are still exposed, we should 
consider seizing them or sanctioning them.
    But when it comes to the democratic opposition, I think 
that we need to place an importance on a legitimate organizing 
process, primaries, a process out of which there will be 
consensus about the candidate to face Ortega and his wife, 
Rosario Murillo, because that is the lesson for me from the 
1990 elections that saw the election of Violeta Chamorro was 
that there was a consensus that came out of a proper organizing 
process among the opposition.
    The Chairman. Thank you. Senator Risch.
    Senator Risch. Thank you, Mr. Chairman. First of all, for 
you, Dr. Berg, last month, the Ortega regime proposed a measure 
to force Nicaraguan banks to do business with individuals 
facing economic sanctions. What impact does this have on 
Nicaragua's obligations under the Dominican Republic-Central 
America Free Trade Agreement?
    Dr. Berg. Thank you for the question, Senator. You are 
referring to the so-called Consumer Protection Law, which 
essentially forces the 27 or so designated individuals on the 
OFAC list to be able to maintain a bank account within 
Nicaragua. And, of course, the danger here is that Nicaragua's 
entire banking system could be shut out of international 
markets and the ability of Nicaraguans to both send and receive 
money if their connections to those corresponding banks in the 
United States is cut off because of this Consumer Protection 
Law, which operates as a sort of blocking mechanism on U.S. 
sanctions. And so the consequences here are grave. We all know 
the importance of remittances for quite a few countries in 
Central America, and if that connection has to be severed to 
corresponding banks in the United States, it could create chaos 
within the Nicaraguan banking system.
    Senator Risch. Yeah, I think most of us are aware of the 
remittance issues you indicated, the huge part of the GDP that 
makes up those countries, and I am assuming that is going to 
cause some real difficulties in that regard. Is that a fair 
statement?
    Dr. Berg. It would, Senator, yes.
    Senator Risch. Okay. Well, thank you. For both of you, I 
think you have touched on this, but if you could delve a little 
deeper maybe into what are the implications for the region and 
for the Hemisphere if Ortega fraudulently extends his time in 
office after the November--by means of the November 2021 
elections. What do you foresee there?
    Dr. Berg. I'll take this one first, if it is okay with Ms. 
Ullmer. Look, I think that this is really the last chance that 
we have for something approaching free or freer and fairer 
elections in Nicaragua. Ms. Ullmer refers in her written 
statement to ``democratic deficits'' in Nicaragua. I would 
actually go a step further and say we are on the precipice of a 
consolidated dictatorship, as the Chairman indicated in some of 
his remarks, in Nicaragua. So this really is the last chance 
that we have for freer and fairer elections.
    We have to get our policy right. Obviously, of course, the 
opposition needs to do its thing on the ground. It needs to 
organize. It needs to have consensus and unity around a single 
candidate, but we need to do our part to make sure that there 
is political space in the country. But I cannot emphasize 
enough, Senator that this, in my opinion, is really our 
chance--our last chance because a consolidated dictatorship, as 
I mentioned in my opening remarks, is extremely difficult to 
break down and rebuild a democracy out of that. And we are 
really on the precipice here in Nicaragua if we see another re-
election of Daniel Ortega and his wife.
    Senator Risch. Yeah. Ms. Ullmer?
    Ms. Ullmer. Thank you. I would agree with everything that 
Dr. Berg just said and add that the danger for the Hemisphere 
is also the increased illiberal influences that have already 
established themselves in Nicaragua. The Russians, as you know, 
have built counter-narcotics training and are rumored to have 
trained more than 500 officials in Central America. It mirrors 
U.S. training for counter-narcotics in the Northern Triangle. 
They also have satellites based in Nicaragua that are rumored 
to be spying on the opposition and who knows who else in the 
Hemisphere. I would say that is the real danger. Not only is it 
harder to roll it back as we have seen in Venezuela, but we 
have some real illiberal influences at our back door.
    Senator Risch. Thank you much. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Cardin.
    Senator Cardin. Let me thank both of our witnesses for your 
testimony, and you just underscored the point about our need to 
pay attention to good governance issues. You mentioned 
transparency. You mentioned some of the statutes that we have 
done in regards to money laundering. And when you look at our 
hemisphere and the challenges that we confront in our 
hemisphere, we have a greater tradition of democratic 
governments. But we are very much compromised by systemic 
corruption that exists in so many countries that call 
themselves democratic countries, and may have even elections 
that qualify as free and fair elections, but they are being 
challenged today because of the failure to confront corruption, 
which has led to drug trafficking, which has led to all the 
other issues that we are talking about today.
    And, yes, you mentioned one issue in regards to money 
laundering, which I would agree with you. The statues that we 
have tried to confront with shell corporations, very important, 
but we need to take a much more holistic approach. And that is 
why Senator Young and I introduced legislation that this 
committee acted on in the last Congress that did not get to the 
finish line, that would establish a process to evaluate how 
well countries are on a path to dealing with corruption, in a 
way similar to how we evaluate trafficking in persons, using a 
similar mechanism, so that we have a common standard to put a 
spotlight on countries on what they need to do in order to make 
progress.
    Now, the Biden administration is talking about major 
investments in our hemisphere. I support that, but those 
investments must be founded in our values, and President Biden 
has been strong about this. But one of those values needs to be 
to have a commitment--a political commitment of the leaders to 
deal with corruption, not to dismantle the anti-corruption 
mechanisms in your country, but to strengthen that, and to have 
an independent judiciary, and to have laws against laundering 
money, and to have anti-bribery statutes. All of that needs to 
be part of a commitment, and the United States must be in the 
leadership to put a focus on that.
    So let me just get each of your comments as to how we can 
really showcase U.S. leadership that can allow us to show 
regional leadership with commitments to fight corruption.
    Ms. Ullmer. If it is okay by Dr. Berg, I will take this one 
first then. In the Northern Triangle where we see entrenched 
elite corruption that is being enriched by networks of narco-
traffickers, and human traffickers, we need to see the 
commitment of the leaders, but also actions. And while we have 
been working with governments in the past, we need to pay more 
attention to working with reformers both inside, but also 
outside of government. And the good news is that there have 
been reformist legislators, former attorney generals, and 
bodies that have been left and established by CICIG in 
Guatemala or MACCIH in Honduras. And there are those 
individuals who have been trained and have reform-minded values 
that can be supported going forward.
    Civil society is also forming larger networks, both at the 
sub regional and national levels, to support one another. These 
networks include investigative journalists, civil society, and 
human rights and anti-corruption watchdogs. It is important 
that the United States show a commitment and support not only 
to the governments, but also to those reformists that are on 
the outside of the government trying to rescue their democracy 
from narco-traffickers.
    Senator Cardin. Dr. Berg?
    Dr. Berg. Thank you for the question, Senator, and thank 
you as well for the legislation requiring open reporting on 
transparency, also a progress report on this very important 
issue. I love pieces of legislation that use some of the best 
tools of free societies to help other free societies.
    I am just going to say it. We have some really difficult 
partners in the region, and as Ms. Ullmer mentioned, leadership 
is necessary, and if you do not have reformers on the ground, 
we are limited in what we are able to do. And one thing I want 
to mention here, which otherwise might not get mentioned, is 
that I am extremely concerned about Mexico, for example, and 
about the progress in that country when it comes to money 
laundering concerns.
    The gulf between what the leadership of someone like Andres 
Manuel Lopez Obrador promised and what he is actually 
delivering, I think there is a delta between that. There is a 
big opportunity here for this Administration to push the AMLO 
administration towards its rhetorical goals, which is this 
fourth transformation, this final separation between economic 
and political power in Mexico, and how money laundering and 
corruption is intertwined there is extremely important. But 
there are incredible blind spots in this Administration that 
need to be pressured, I think, from the United States.
    Another thing I would highlight is the prosecution of 
malefactors. We need to make sure that folks that are using, 
specifically, our financial system and also the financial 
systems of the region, face penalties. As was mentioned by the 
Secretary General previously, there is a very large amount of 
impunity in many countries throughout the region, many times 
above 90 percent. There are asymmetrical tools that we can 
bring to the fore as well. We have talked about sanctions and 
the activity of OFAC. There was also the Engel List that was 
passed late last year, which will be another tool for naming 
and shaming and blocking travel.
    But this is incredibly technical work, as Ms. Ullmer 
mentioned. You have to work with attorneys general. You have to 
work with civil society on the ground. And it is not the big 
sort of visionary stuff. It is highly technical, but it is 
really, in many ways, what makes the difference for the quality 
of life and the quality of democracy in the region.
    The Chairman. Thank you.
    Senator Cardin. Thank you.
    The Chairman. Senator Kaine, and may I ask you, Senator 
Kaine, to close out our hearing? I have an immigration 
hearing--a meeting that I need to go to, so if you would do 
that.
    Senator Kaine. Absolutely. Thank you.
    The Chairman. You are the last member to be recognized, 
unless Senator Risch has more questions.
    Senator Risch. No, I am fine. Thank you.
    The Chairman. Okay.
    Senator Kaine. Great. Thank you to you all, and there is 
also a vote on floor, so you will see us race off.
    The Chairman. Yes, Senator Kaine? Senator Kaine, I am 
sorry. I misspoke. I understand Senator Van Hollen is available 
virtually, so after you, if you would recognize him.
    Senator Kaine. Oh, I will.
    The Chairman. Thank you.
    Senator Kaine. [Presiding.] I am going to just ask two 
questions, and I will let one of you tackle one and one of you 
tackle the other. So here are my two questions. One, what can 
we do to promote more press freedom in the region? The 
Reporters without Borders say that Mexico and Honduras are two 
of the top four nations in the world in the number of 
journalists killed, so we are not even talking censorship or 
imprisonment. We are talking the murder of journalists, and 
there are other nations in the hemisphere that have significant 
challenges as well. So what can we do from the vantage point of 
this committee or the Senate to promote press freedom in the 
region?
    And the second, I will make a self-critical point, and it 
is this. This is my region of the world that I am most 
interested. I love being on this committee for that reason. But 
I find myself almost always talking about North America, 
Central America, South America, and seldom about the Caribbean, 
and I will just be self-critical about that. I do not really 
focus on Caribbean issues. Of course we have had many 
discussions about Cuba, but other than that, we do not do an 
awful lot in the committee about the Caribbean. And so maybe 
one of you could address what we could do to promote press 
freedom in the region, and the other maybe could address what 
are some opportunities that we might have on relationship 
building in the Caribbean.
    Ms. Ullmer. Sure. So for press freedom, and the protection 
of journalists: I would say protection of all reform-minded 
persons working within government and outside of government is 
really number one to ensure that they are safe in what they are 
doing. That includes providing security training, providing 
cybersecurity training, and, unfortunately, sometimes 
protecting them as witnesses as they are trying to get their 
information out. Many times, the journalists will now pair up 
with international journalists on important corruption events 
to protect their lives, so that is important.
    And another area to work on with press freedom is 
disinformation. As you know, there is a prevalence of 
disinformation. And so nowadays, NDI and other organizations 
like ours are working with electoral authorities and other 
government officials, with Facebook, with Microsoft, with 
Twitter, on how to detect disinformation and to combat it. 
Specifically, we have been dealing with disinformation against 
violence against women political candidates in countries like 
Colombia, Mexico, Ecuador, and El Salvador. So, I think those 
are important initiatives. Thank you, Senator.
    Senator Kaine. Thank you, Ms. Ullmer. And on the Caribbean, 
what--how about some ideas?
    Dr. Berg. Yes. Thank you, Senator, very much for the 
question on the Caribbean. I think this goes back to what I 
said in my opening statement about vision. Sometimes the 
Charter has failed to play that wider visionary role that we 
hoped it would play, and I hope that the United States 
Government and this Administration will think about the 
Caribbean as an integral part of this community because I agree 
with you 100 percent, Senator. I am someone who works on these 
issues every day, and I, too, oftentimes find myself neglecting 
the Caribbean.
    I think there is an opportunity for us to roll out a 
Caribbean Basin type program, a serious engagement with the 
region. A capital infusion in DFC, and, rather, 35 percent 
requirement for DFC to lend to the Americas as well as the 
capital infusion in the Inter-American Development Bank could 
beef up our support and engagement in the region. But whenever 
I meet with members of the Caribbean diaspora and also 
Caribbean delegations here in Washington, there is a real 
thirst for U.S. engagement. I think they do feel that neglect 
that I mentioned as not being fully part of the region, which 
of course they absolutely are. And I am also----
    Senator Kaine. And just parenthetically, then that can 
create challenges because when we go to Caribbean nations to 
talk about, hey, can you support us dealing with Venezuelan 
sanctions or something like that, if they feel like we have 
kind of left them out of a dialogue--and we are normally not 
paying attention to the Americas anyway, but if we pay even 
less attention the Caribbean, then when we go with an ask, I 
mean, it is a lot harder to get an answer that we like.
    Dr. Berg. That is right, Senator. The last thing I was 
going to say is, I am very thankful that the Secretary General 
mentioned the Caribbean as our third border. I believe that is 
the language that he used about it, and I hope that the 
Administration will begin to think about vaccines as a critical 
form of our engagement. Again, this is not only a matter of 
soft power and influence, but it is also a matter of public 
health and public safety.
    Senator Kaine. Thank you very much for both, and I now 
recognize by Senate Webex, Senator Van Hollen.
    Senator Van Hollen. Thank you, Senator Kaine, and thank you 
to both our witnesses. And let me just start by saying I share 
the concerns that were raised and expressed about the situation 
in Venezuela, the situation in Nicaragua, with both those 
regimes. My question relates to the largest democracy in Latin 
America--Brazil--and some of the threats we have seen to 
democratic and independent institutions in the country from 
President Bolsonaro. And I wanted to see if you would comment 
on what you think about the stresses being placed on democracy 
in Brazil, and whether the United States should be doing 
something about it. Why do we not start with Ms. Ullmer?
    Ms. Ullmer. Thank you, Senator. It is concerning what is 
happening in Brazil, and, particularly, the rhetoric. Brazil, 
as you know, represents one of the largest democracies in the 
hemisphere. The rule of law, protection of the environment with 
the Amazons, COVID-19, and restrictions that have been placed 
on the population and then lifted rapidly, and disinformation 
surrounding COVID in Brazil, are all concerning. Democracy is 
fragile in Latin America, and when you have the largest 
democracies backslide and their future looks grim, these are 
all very concerning trends. And the U.S. should probably focus 
more on helping look at issues of democratic governance in 
terms of the environment and others that affect the hemisphere 
and engage in that regard. Thank you.
    Senator Van Hollen. Thank you. Dr. Berg, do you share those 
concerns?
    Dr. Berg. Thank you for the question about Brazil, Senator. 
I have watched as a Brazil expert and also a person who spent 
more than 2 years of my life living in the wonderful country of 
Brazil. I spent a lot of my time watching the country and 
paying attention to President Jair Bolsonaro and what he is 
doing. I think that there are, on some levels, threats to the 
democratic institutions in the country, but in my opening 
remarks I sketched out or adumbrated what I thought were 
consolidated democracies, backsliding and straining 
democracies, highly-imperfect democracies, and consolidated 
dictatorships in the region. And I will note that Brazil falls 
somewhere between the consolidated democracies and backsliding 
democracies.
    But I, for one, think that Brazil has incredibly strong 
institutions, and I will point you to the anti-corruption 
investigation called Operation Lava Jato--Operation Car Wash in 
English--which actually led to or contributed quite a bit to 
the electoral environment which gave us a president like Jair 
Bolsonaro, as an example of the way in which institutions in 
Brazil are incredibly strong.
    Compare that, for example, to Central America where there 
was an exogenous imposition of an anti-corruption body like the 
CICIG. Brazil was able to do this domestically with its 
institutions, a very wide-ranging anti-corruption probe which 
indicted more than 200 high-level individuals in the political 
sphere to trial for systemic corruption. So I think that there 
is an element to this where Brazil's institutions are quite 
strong, even if they are being strained.
    In terms of our relationship with Brazil, I think we need 
to widen the aperture of our engagement. I think major non-NATO 
ally status, which was accorded to Brazil in 2019, is a major 
opportunity for us to engage on the defense cooperation level.
    But if you are looking for areas of leverage, Senator, to 
be able to nudge the Bolsonaro administration into more 
democratic and productive directions, look, Brazil is always 
looking for affirmation of its status as an emerging power on 
the global scene. Right now, one of the most important goals 
for Brazil is OECD membership, and so that would be a critical 
space, I think, for the United States to exert some amount of 
leverage if it is so looking to do so with the Bolsonaro 
administration.
    Senator Van Hollen [Presiding.] I appreciate that 
suggestion, and I may follow up with you on it.
    Thank you to both our witnesses. I think that concludes our 
hearing, and the record will be open until tomorrow, close of 
business, for questions for the record.
    Thank you both, and the hearing is adjourned.
    [Whereupon, at 12:02 p.m., the committee was adjourned.]

                            [all]
</pre></body></html>
